No.

In the
Supreme Court of the
United States
JOHVANNY AYBAR-ULLOA,
PETITIONER,
v.
UNITED STATES OF AMERICA,
RESPONDENT.
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FIRST CIRCUIT

APPENDIX

Heather Clark
Clark Law Office
P.O. Box 879
Waterford, Connecticut 06385
Tel.: (203) 772-7939
Email: heather@hclarklaw.com

Counsel of Record

TABLE OF CONTENTS
Page
APPENDIX
Judgment of the United States Court of Appeals for the First Circuit,
United States v. Steven Nygren, No. 18-1548 (August 6, 2019) ..................... 1a
Opinion of the United States Court of Appeals for the First Circuit,
United States v. Steven Nygren, No. 18-1548 (August 6, 2019) ..................... 2a
The Maritime Drug Law Enforcement Act, 46 U.S.C. §§ 70501-70508................... 21a

1

Case: 15-2377

Document: 00117696522

Page: 1

Date Filed: 01/25/2021

Entry ID: 6396908

United States Court of Appeals
For the First Circuit
_____________________
No. 15-2377
UNITED STATES OF AMERICA,
Appellee,
v.
JOHVANNY AYBAR-ULLOA,
Defendant, Appellant.
__________________
JUDGMENT
Entered: January 25, 2021
This cause came on to be heard on appeal from the United States District Court for the
District of Puerto Rico and was argued by counsel.
Upon consideration whereof, it is now here ordered, adjudged and decreed as follows:
Johvanny Aybar-Ulloa's conviction is affirmed, his sentenced is vacated, and the matter is
remanded for resentencing consistent with the opinion issued this day.
By the Court:
Maria R. Hamilton, Clerk
cc: Hon. Jay A. Garcia-Gregory, Maria Antongiorgi Jordan, Clerk, United States District Court
for the District of Puerto Rico, Carlos R. Cardona Torres, Mariana E. Bauza Almonte, Scott A.C.
Meisler, Heather Clark

1a

United States v. Aybar-Ulloa, 987 F.3d 1 (2021)

987 F.3d 1
United States Court of Appeals, First Circuit.

UNITED STATES of America, Appellee,
v.
Johvanny AYBAR-ULLOA,
Defendant, Appellant.
No. 15-2377
|
January 25, 2021
Synopsis
Background: After denial of defendant's motion to dismiss
the indictment for lack of jurisdiction, defendant entered
a guilty plea, in the United States District Court for the
District of Puerto Rico, Jay A. García-Gregory, J., to violating
the Maritime Drug Law Enforcement Act (MDLEA) by
conspiring to possess with intent to distribute cocaine on
board a vessel subject to jurisdiction of United States,
and aiding and abetting possession with intent to distribute
cocaine on board a vessel subject to jurisdiction of United
States, and at sentencing, minor-participant reduction of
offense level under Sentencing Guidelines was not granted.
Defendant appealed.

Holdings: On rehearing en banc, the Court of Appeals,
Kayatta, Circuit Judge, held that:
the United States had jurisdiction, as matter of international
law, over defendant's prosecution under MDLEA, and
United Nations Convention on the Law of the Sea (UNCLOS)
did not prohibit the exercise of jurisdiction by the United
States.
Convictions affirmed; sentence vacated, and remanded for
resentencing.
Barron, Circuit Judge, filed concurring opinion.
Opinion, 913 F.3d 47, vacated.

*2 APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF PUERTO RICO [Hon. Jay
A. Garcia-Gregory, U.S. District Judge]
Attorneys and Law Firms
Heather Clark, with whom Clark Law Office was on brief, for
appellant.
Scott A.C. Meisler, Attorney, U.S. Department of Justice,
Criminal Division, Appellate Section, with whom W. Stephen
Muldrow, United States Attorney, Mariana E. BauzáAlmonte, Assistant United States Attorney, Chief, Appellate
Division, Brian A. Benczkowski, Assistant Attorney General,
and John P. Cronan, Principal Deputy Assistant Attorney
General, were on brief, for appellee.
Before Howard, Chief Judge, Lynch, Thompson, Kayatta, and
Barron, Circuit Judges.*
*

Judge Torruella heard oral argument in this matter and
participated in the semble, but he did not participate in
the issuance of the opinion in this case.

Opinion En Banc
KAYATTA, Circuit Judge.
United States law enforcement authorities apprehended
Johvanny Aybar-Ulloa (“Aybar”) on a stateless vessel in
international waters carrying packages of cocaine in violation
of the Maritime Drug Law Enforcement Act (“MDLEA”),
46 U.S.C. §§ 70501–70508. In appealing his subsequent
conviction, Aybar makes a two-step argument. First, he
contends that Congress's authority to criminalize and punish
conduct on the high seas under Article I, Section 8, Clause
10 of the United States Constitution (“the Define and Punish
Clause”) must be cabined by the limitations of international
law on a nation's power to criminally prosecute conduct on the
high seas. Second, he argues that the United States exceeded
those limitations of international law by prosecuting him in
this case.
In a divided opinion, a panel of this court trained its attention
exclusively on the second part of Aybar's argument. See
United States v. Aybar-Ulloa, 913 F.3d 47, 53-56 (1st Cir.
2019). Relying on prior circuit precedent, the panel majority
rejected that necessary part of Aybar's argument for two
reasons: First, we previously held in United States v. Victoria,

2 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

1

United States v. Aybar-Ulloa, 987 F.3d 1 (2021)

876 F.2d 1009 (1st Cir. 1989) (Breyer, J.), that international
law does indeed “give[ ] the United States ... authority
to treat stateless vessels as if they were its own.” Id. at
1010 (second alteration in original) (quoting United States v.
Smith, 680 F.2d 255, 258 (1st Cir. 1982)). Second, our prior
opinion in United States v. Cardales, 168 F.3d 548 (1st Cir.
1999), included certain statements construing international
law as allowing a nation to define trafficking in controlled
substances aboard vessels as a threat sufficient *3 to justify
an assertion of jurisdiction under the “protective principle.”
Id. at 553.
As both the panel majority and the panel dissent observed, our
prior opinion in Victoria “did not fully spell out” its reasoning.
Aybar-Ulloa, 913 F.3d at 54; see also id. at 61 (Torruella, J.,
dissenting in part). Cardales, in turn, can be read as applying
only to the circumstance where a foreign flag nation consents
to the application of United States law to persons found on
that nation's flagged vessel. Id. at 55-56 (citing Cardales,
168 F.3d at 552-53). And the question of the United States'
jurisdiction over persons on vessels on the high seas recurs in
this circuit. For those reasons, we granted Aybar's petition to
rehear this appeal en banc.
Following that rehearing, we now affirm Aybar's conviction.
In doing so, we find that his prosecution in the United
States for drug trafficking on a stateless vessel stopped and
boarded by the United States in waters subject to the rights of
navigation on the high seas violates no recognized principle
of international law. To the contrary, international law accepts
the criminal prosecution by the United States of persons like
Aybar, who was seized by the United States while trafficking
cocaine on a stateless vessel on the high seas, just as if
they were trafficking on a United States-flagged ship. We
therefore need not and do not reach the question of whether
the application of MDLEA to Aybar would be constitutional
were international law otherwise. We also need not and do
not rely on the protective principle, leaving its potential
application for another day. Finally, for the reasons agreed
upon by the full panel, we vacate Aybar's sentence and remand
for resentencing under the Sentencing Commission's clarified
guidance reflected in Amendment 794. See id. at 56-57.

As Aybar urges, we take the facts as “[p]er the affidavit [filed
by the government] in support of the complaint.” On August
9, 2013, the HMS Lancaster, a foreign warship, launched a
helicopter while on patrol in the Central Caribbean. Operators
aboard the helicopter spotted a thirty-foot go-fast vessel dead
in the water at 15-03N, 067-01W, an area approximately 160
nautical miles south of Puerto Rico constituting international
waters.1 The vessel bore no indicia of nationality and was
carrying numerous packages in plain view.
1

The coordinates provided by the government nonetheless
appear to place the defendant's vessel within the
Exclusive Economic Zone (“EEZ”) of the United States.
Because the right of freedom of navigation on the high
seas applies in the EEZ, we proceed with reference to the
rules of interdiction applicable on the high seas. United
Nations Convention on the Law of the Sea (“UNCLOS”)
arts. 58(1-2), 87, Dec. 10, 1982, S. Treaty Doc. No.
103-39, 1833 U.N.T.S. 397; see generally id. pt. VII, § 1.
We do not address any potential limitations on freedom
of navigation in the EEZ that may be imposed in this area.
See id. art. 58(3).

A Law Enforcement Detachment Team of the United States
Coast Guard was embarked on the HMS Lancaster at the time
of the incident. Members of this team launched a small boat
to conduct a right-of-visit approach. Coast Guard personnel
identified defendant Aybar and two others aboard the go-fast
vessel. Aybar and another member of the vessel claimed to be
citizens of the Dominican Republic, while the master of the
vessel claimed Venezuelan citizenship. In response to inquiry
from the Coast Guard personnel, the master of the vessel
made no claim of nationality for the vessel. The Coast Guard
personnel suspected contraband.
*4 Concluding that the vessel was without nationality, the
Coast Guard personnel then boarded and searched the vessel.
Following the search, the Coast Guard proceeded to take all
three men and the packages found on board back to the HMS
Lancaster, where the packages' contents tested positive for
cocaine. The three men were then transferred to a United
States Coast Guard vessel and taken to Ponce, Puerto Rico,
where they were held in custody.

I.

B.

A.

Shortly thereafter, a federal grand jury issued an indictment
against Aybar, charging him under MDLEA with conspiring
to possess with intent to distribute cocaine on board a vessel

3 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

2

United States v. Aybar-Ulloa, 987 F.3d 1 (2021)

subject to the jurisdiction of the United States, 46 U.S.C. §
70506(b) (count one), and aiding and abetting possession with
intent to distribute cocaine on board a vessel subject to the
jurisdiction of the United States, 46 U.S.C. §§ 70502(c)(1)
(A), 70503(a)(1), 70504(b)(1), 70506(a), 18 U.S.C. § 2 (count
two). The indictment also included an allegation of forfeiture,
46 U.S.C. § 70507.
MDLEA provides that “[w]hile on board a covered vessel, an
individual may not knowingly or intentionally ... manufacture
or distribute, or possess with intent to manufacture or
distribute, a controlled substance.” 46 U.S.C. § 70503(a)(1).
As relevant here, a “covered vessel” includes “a vessel subject
to the jurisdiction of the United States,” id. § 70503(e)(1),
which is defined to include “a vessel without nationality,” id.
§ 70502(c)(1)(A). “[A] vessel without nationality,” in turn,
includes “a vessel aboard which the master or individual in
charge fails, on request of an officer of the United States
authorized to enforce applicable provisions of United States
law, to make a claim of nationality or registry for that vessel.”
46 U.S.C. § 70502(d)(1)(B).
Aybar moved to dismiss the indictment for lack of
jurisdiction, arguing that Congress's power under Article I
“[t]o define and punish Piracies and Felonies committed on
the high Seas, and Offenses against the Law of Nations,”
U.S. Const. art. I, § 8, cl. 10, did not reach his conduct.
After the district court denied his motion, Aybar proceeded
to plead guilty. Aybar's plea accepted the facts substantiating
the charges against him under MDLEA. Those facts, in
turn, make clear that the vessel on which he was found
was “a vessel without nationality” as defined in section
70502(d)(1)(B) because, while on board the vessel, the master
made no claim of nationality when requested to do so by
a United States officer authorized to enforce the United
States drug laws. Despite his guilty plea and concessions,
Aybar adequately preserved his challenge to Congress's
constitutional power to criminalize his conduct pursuant to
its Article I powers. See Class v. United States, ––– U.S.
––––, 138 S. Ct. 798, 804-05, 200 L.Ed.2d 37 (2018). On
January 9, 2019, a divided panel rejected that challenge,
affirming his conviction. For unrelated reasons, the panel also
vacated the district court's sentence and remanded for further
proceedings.

II.

Our analysis proceeds in five parts summarized as follows:
First, the “go-fast” ship upon which Aybar travelled was
rendered “stateless” when its master on board failed upon
request to make a valid claim of nationality for it,
flouting, among other things, the important requirement of
international law that every vessel on the high seas sail under
the flag of a nation state. Second, as a stateless vessel, the
ship was susceptible to the exercise of jurisdiction by any
nation intercepting the vessel on the high seas, just as if the
vessel were one of that nation's own. Third, the exercise of
*5 jurisdiction over Aybar's ship just as if it were a United
States vessel included jurisdiction over drug trafficking on the
vessel just as if it were drug trafficking on a United States
vessel, which is considered to be the territory of the United
States. Fourth, the application of that territorial jurisdiction
to prosecute Aybar in a United States court for illegally
trafficking cocaine is compatible with, and welcomed by,
any relevant specific rules and undertakings governing the
assertion of domestic power on the high seas. Fifth, we offer
several important caveats.

A.
Under international law governing the seas, every vessel must
sail under the flag of one, and only one, state. United Nations
Convention on the Law of the Sea (“UNCLOS”) art. 92, Dec.
10, 1982, S. Treaty Doc. No. 103-39, 1833 U.N.T.S. 397.2 In
turn, every state maintains an obligation to “fix the conditions
for the grant of its nationality to ships, for the registration of
ships in its territory, and for the right to fly its flag,” id. art.
91(1), and to “issue to ships to which it has granted the right
to fly its flag documents to that effect,” id. art. 91(2). While
the type of registration papers may differ from state to state
depending on domestic laws, every state must keep a register
of “the names of all private vessels sailing under its flag,” and
ensure “that every vessel may be identified from a distance.”
1 L.F.L. Oppenheim, International Law §§ 290 (Jennings et
al. eds., 9th ed. 2008). “Without a flag or papers, a vessel may
also traditionally make an oral claim of nationality when a
proper demand is made.” United States v. Matos-Luchi, 627
F.3d 1, 5 (1st Cir. 2010).
2

The United States has signed but not ratified UNCLOS.
We nevertheless cite to it as evidence of the customs and
usages of international law. See The Paquete Habana,
175 U.S. 677, 700, 20 S.Ct. 290, 44 L.Ed. 320 (1900);
cf. United States v. Alaska, 503 U.S. 569, 588 n.10,
112 S.Ct. 1606, 118 L.Ed.2d 222 (1992) (noting that the

4 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

3

United States v. Aybar-Ulloa, 987 F.3d 1 (2021)
United States has stated that the “baseline provisions [of
UNCLOS] reflect customary international law” (citation
omitted)).

This “flag-state” system -- by which all vessels are required
to fly the flag of a state, and states are in turn required to
approve the conditions for granting rights to fly their flag -serves several purposes. First, by subjecting vessels to the
exclusive jurisdiction of the flag state, the flag-state system
guarantees freedom of navigation in international waters, as
states generally may not interfere with the passage on the high
seas of ships lawfully flying the flag of another state. See
Richard A. Barnes, “Flag States,” in The Oxford Handbook
on the Law of the Sea 313 (Rothwell et al. eds. 2015); cf.
UNCLOS arts. 87, 90. Second, the flag-state system provides
clear guidance as to which state bears the primary obligation
to regulate conduct occurring on vessels on the seas. See R.R.
Churchill & A.V. Lowe, The Law of the Sea 205 (1988); cf.
UNCLOS art. 94. Third, the flag-state system indicates which
state may bear responsibility for the conduct of a ship on the
seas. See Churchill & Lowe, supra, at 205. Thus, the flag-state
system is “[o]ne of the most important means by which public
order is maintained at sea.” Id.
Aybar concedes that the ship upon which he was found plainly
did not comply with this system. It flew no flag, its master
claimed no nationality, and no other indicia of registration
or nationality were present when authorized United States
officials stopped and boarded the ship. Presumably for these
reasons, Aybar does not dispute that his vessel may be treated
as “stateless” under international law. See, e.g., *6 MatosLuchi, 627 F.3d at 6 (stating that a vessel “may be deemed
‘stateless’ ... if it fails to display or carry insignia of nationality
and seeks to avoid national identification”).

B.
International law plainly provides that a nation's warship (or
law enforcement ship) may stop and board a stateless vessel
on the high seas. See UNCLOS art. 110(1)(d); Restatement
(Third) of the Foreign Relations Law of the United States §
522(2)(b) (1987) [hereinafter “Restatement (Third)”] (“[A]
warship or clearly-marked law enforcement ship of any state
may board [a nongovernmental ship] ... if there is reason
to suspect that the ship ... is without nationality ....”); see
also Brownlie's Principles of Public International Law 285,
292 (Crawford ed., 9th ed. 2019) [hereinafter “Brownlie's
Principles”]; Malcolm Shaw, International Law 457 (8th ed.
2017) (“A ship that is stateless, and does not fly a flag,

may be boarded and seized on the high seas.”); Myres S.
McDougal & William T. Burke, The Maintenance of Public
Order at Sea and the Nationality of Ships, 54 Am. J. Int'l L. 25,
76-77 (1960) (“So great a premium is placed upon the certain
identification of vessels for purposes of maintaining minimal
order upon the high seas ... that extraordinary deprivational
measures are permitted with respect to stateless ships.”). In
short, “[b]ecause stateless vessels do not fall within the veil
of another sovereign's territorial protection,” the vessel is
afforded no right of free navigation. United States v. Rendon,
354 F.3d 1320, 1325 (11th Cir. 2003) (quoting United States
v. Caicedo, 47 F.3d 370, 373 (9th Cir. 1995)); see also United
States v. Rubies, 612 F.2d 397, 402-03 (9th Cir. 1979) (“A
foreign flag[ged] vessel is thereby protected by her country
of registration. ... An unregistered, or ‘stateless,’ vessel,
however, does not have these rights or protections.”).
To say that international law grants to any state the authority
to interdict and exercise physical control over a stateless
vessel is to say that international law renders stateless vessels
“susceptible to the jurisdiction of any State,” Barnes, supra,
at 314, including the United States. See Smith, 680 F.2d
at 258 (recognizing that “[i]nternational law ... allows any
state to extend its authority over a stateless ship”) (citing
United Nations Convention on the High Seas, 13 U.S.T. 2313,
T.I.A.S. No. 5200 (1958)); see also United States v. Juda,
46 F.3d 961, 967 (9th Cir. 1995); United States v. MartinezHidalgo, 993 F.2d 1052, 1055 (3d Cir. 1993); Victoria, 876
F.2d at 1010 (recognizing that international law “gives the
United States ... authority to treat stateless vessels as if they
were its own”); United States v. Alvarez-Mena, 765 F.2d
1259, 1265 (5th Cir. 1985) (“[I]nternational law does not
preclude any nation from exercising jurisdiction over stateless
vessels on the high seas.”); United States v. Pinto-Mejia, 720
F.2d 248, 260-61 (2d Cir. 1983); United States v. MarinoGarcia, 679 F.2d 1373, 1383 (11th Cir. 1982) (“[I]nternational
law permits any nation to subject stateless vessels on the high
seas to its jurisdiction.”); United States v. Howard-Arias, 679
F.2d 363, 371 (4th Cir. 1982); Malcolm D. Evans, “The Law
of the Sea,” in International Law 651, 656-60 (Malcolm D.
Evans ed., 3d ed. 2010) (“[I]f a ship is stateless, or flies more
than one flag so that its true State of registry is not clear,
then any state can exercise jurisdiction over it.”) (cited with
approval in Restatement (Fourth) of the Foreign Relations
Law of the United States § 408 n.3 (2018) [hereinafter
“Restatement (Fourth)”]).

5 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

4

United States v. Aybar-Ulloa, 987 F.3d 1 (2021)

*7 In sum, there is no doubt that the United States could
exercise jurisdiction over the stateless vessel upon which
Aybar was found.

C.
Offering no persuasive reason why the United States could
not exercise jurisdiction over the stateless vessel upon which
he was found, Aybar narrows his focus to his prosecution.
While it may be clear that international law allows any state to
exercise jurisdiction over a flagless vessel, even to the point of
stopping, boarding and seizing it should they wish to do so, he
asserts that the prosecution of those on board the vessel under
the laws of the seizing country is a different matter altogether.
With respect to United States-flagged vessels, the law does
not distinguish between jurisdiction over the vessel itself
and jurisdiction over the people on the vessel and their
conduct on board. It is well settled that the United States
has jurisdiction over conduct occurring on United Statesflagged vessels because: (1) “[t]he deck of a private American
vessel ... is considered ... constructively as territory of the
United States,” Ross v. McIntyre, 140 U.S. 453, 464, 11
S.Ct. 897, 35 L.Ed. 581 (1891); and (2) a state's jurisdiction
over conduct on its territory is one of “the most commonly
recognized bases of jurisdiction,” Restatement (Fourth) § 407
cmt. c; see also id. § 408 cmt. a (“A state may exercise
prescriptive jurisdiction with respect to persons, property,
and conduct within its territory.”); Smith, 680 F.2d at 257
(similar). Cf. Restatement (Third) § 502 cmt. d (explaining
that a flag state has jurisdiction over “the conduct of a ship”
as well as “any activity aboard the ship”).
Two centuries of case law strongly suggest that the same
territorial principles apply to conduct aboard a stateless
vessel. Shortly after our nation's founding, the United
States Supreme Court issued a series of opinions addressing
the scope of the United States' jurisdiction over conduct
committed on board non-United States vessels. The Court
rejected the assertion of jurisdiction in domestic courts over
murders committed by and against foreigners on foreign
vessels. See United States v. Furlong, 18 U.S. (5 Wheat.)
184, 196–98, 5 L.Ed. 64 (1820); see also United States v.
Klintock, 18 U.S. (5 Wheat.) 144, 151, 5 L.Ed. 55 (1820).
Murders committed by and against foreigners on stateless
vessels, though, could be prosecuted in the United States. See
Klintock, 18 U.S. at 151–52; United States v. Holmes, 18 U.S.
(5 Wheat.) 412, 417–18, 5 L.Ed. 122; see also Furlong, 18

U.S. at 194–95 (stating that murder is “equally punishable”
in the courts of the United States when committed on an
American ship or on a stateless pirate ship, as opposed to on a
foreign ship, which presented “a question of more difficulty”).
While those cases dealt with vessels that were deemed
stateless because of piratical conduct, the Court did not hold
that piracy was the only means by which a vessel could be
deemed stateless so as to justify United States prosecutorial
jurisdiction. On that point, Holmes conveyed the opposite,
signaling that conduct of persons on board a stateless vessel
could be prosecuted whether the vessel was piratical or not:
The said Circuit Court had jurisdiction of the offen[s]e
charged in the indictment, if the vessel, on board of which
it was committed, had, at the time of the commission
thereof, no real national character but was possessed and
held by pirates, or by persons not lawfully sailing under the
flag, or entitled to the *8 protection of any government
whatsoever.
18 U.S. at 419.
These founding-era cases also did not hold that a foreign
national may be prosecuted in the United States for his
conduct on the high seas only if he personally renounces his
nationality by engaging in piracy. True, the Court certainly
approved the prosecution of “those who acknowledge the
authority of no State.” Klintock, 18 U.S. at 152. But the
Court also repeatedly emphasized the statelessness of the
ship, rather than the nationality of the persons on board,
in upholding the United States' exercise of jurisdiction
over those persons. For example, in Klintock, the Court
held that “persons on board of a vessel not at the time
belonging to the subjects of any foreign power, but in
possession of a crew acting in defiance of all law, and
acknowledging obedience to no government whatever, ... are
proper objects for the penal code of all nations.” Id. To the
extent that there is any ambiguity as to whether the phrase
“acknowledging obedience to no government whatever” was
intended to modify the “persons” or the “vessel” at issue, the
Court clarified in Holmes that the status of the vessel was
determinative:
In Klintock's case, it was laid down, that to exclude the
jurisdiction of the Courts of the United States, in cases of
murder or robbery committed on the high seas, the vessel
in which the offender is, or to which he belongs, must
be, at the time, ... the property of a subject of a foreign
State, and ... subject, at that time, to [its] control. But if
the offen[s]e be committed in a vessel, not at the time

6 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

5

United States v. Aybar-Ulloa, 987 F.3d 1 (2021)

belonging to subjects of a foreign State, but in possession
of persons acknowledging obedience to no government or
flag, and acting in defiance of all law, it is [punishable
in the courts of the United States]. It follows, therefore,
that murder or robbery committed on the high seas, may
be an offen[s]e cognizable by the Courts of the United
States, although it was committed on board of a vessel not
belonging to citizens of the United States, [ ] if she had no
national character, but was possessed and held by pirates,
or persons not lawfully sailing under the flag of any foreign
nation.
18 U.S. at 416–17. Because the Court in Holmes held that
the existence of jurisdiction depended on whether or not the
vessel at issue was under the control of a foreign nation, “it
made no difference, as to the point of jurisdiction, whether
the [offenders] were citizens of the United States” or citizens
of foreign nations. Id. at 419–20. As we have described,
this approach comports with the overall system of flag-state
jurisdiction. See Furlong, 18 U.S. at 198 (explaining that
the distinction between foreign vessels and stateless vessels
serves to avoid “offensive interference with the governments
of other nations”).
Our concurring colleague well develops the case for treating
Holmes as binding authority dictating our holding in this case.
This is certainly a defensible view. If murder, a crime over
which there is no universal jurisdiction, can be prosecuted
by the United States when committed by a foreigner upon
a foreigner on a vessel that has no national character, why
can the United States not also prosecute drug trafficking
committed by a foreigner on such a vessel? Nevertheless,
the sometimes challenging syntax in Holmes, Furlong, and
Klintock, plus the possibility that international law itself now
differs materially from international law as understood 200
years ago, counsel against resting our conclusion solely on
those cases if we do not need to do so. And we do not.
No other circuit has held that conduct aboard a stateless vessel
seized by the United States on the high seas may not be *9
prosecuted as conduct committed on United States territory.3
See United States v. Moreno-Morillo, 334 F.3d 819, 828 (9th
Cir. 2003) (noting that “a showing of statelessness effectively
moots the nexus requirement because those aboard stateless
vessels effectively have waived their right to object to the
exercise of jurisdiction over them by United States courts”);
see also Marino-Garcia, 679 F.2d at 1383 (concluding that
stateless status “makes the vessel subject to action by all
nations proscribing certain activities aboard stateless vessels
and subjects those on board to prosecution for violating

th[ose] proscriptions”); Juda, 46 F.3d at 967 (recognizing no
distinction between the right to seize stateless vessels and the
right to prosecute persons on board them); Alvarez-Mena, 765
F.2d at 1266-67 (same).
3

Because we sustain MDLEA as applied to Aybar, we
need not decide whether and to what effect MDLEA
should be construed as reaching even more broadly.

While there is no unanimity among scholars on this point,
see Douglas Guilfoyle, “The High Seas,” in The Oxford
Handbook on the Law of the Sea 218 (Rothwell et
al. eds. 2015), the longstanding unanimity among United
States courts is especially significant, as “the state practice
of the United States contributes to the development of
customary international law when followed out of a sense of
international legal right or obligation.” Restatement (Fourth)
§ 402 cmt. b; see also id. n.2.
Treating conduct on stateless vessels in this manner furthers
a basic aim of international law to achieve order on the high
seas by disincentivizing the use of stateless vessels. MarinoGarcia, 679 F.2d at 1382-83. This approach also yields
significant practical benefits, such as reducing complications
when, for example, officials of the seizing nation are
needed as witnesses in a subsequent prosecution of offenses
committed on the vessel. Moreover, those who set out in
stateless vessels cannot be said to possess the same reasonable
expectation of sanctuary from foreign jurisdiction under
international law as those on a flagged vessel would. See
Caicedo, 47 F.3d at 372 (distinguishing properly flagged
vessels, which have a “legitimate expectation” of being
subject only to the laws of the flag state, from stateless
vessels, which “subject themselves to the jurisdiction of
all nations” such that a state's exercise of jurisdiction over
them cannot, categorically, be said to be “arbitrary or
fundamentally unfair”); see also Moreno-Morillo, 334 F.3d
at 828; Marino-Garcia, 679 F.2d at 1382 (describing stateless
vessels as “international pariahs” having “no internationally
recognized right to navigate freely on the high seas” and
finding no categorical limits to the exercise of jurisdiction
over stateless vessels under international law). Simply put, if
a person intent on drug trafficking on the high seas wants to be
prosecuted in his own country should he be caught, he should
sail under that country's flag.

D.

7 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

6

United States v. Aybar-Ulloa, 987 F.3d 1 (2021)

Aybar contends that, notwithstanding the foregoing, his
prosecution was prohibited by other, more specific rules and
undertakings governing jurisdiction and the high seas. As we
will explain, we find that the relevant and more specific rules
and undertakings are entirely consistent with our conclusion
that Aybar was properly subject to prosecution in the United
States for his conduct on board the stateless vessel.

1.
Aybar first points to the 1988 United Nations
Convention Against Illicit Traffic *10 in Narcotic Drugs
and Psychotropic Substances (“UN Drug Trafficking
Convention”), U.N.T.S. 27627 (1988), which was adopted to
give effect to UNCLOS's call on states to “cooperate in the
suppression of illicit traffic in narcotic drugs” on the high
seas, UNCLOS art. 108. Specifically, he points out that the
UN Drug Trafficking Convention does not explicitly address
the possibility of states exercising jurisdiction over persons
found engaging in drug trafficking on stateless vessels on
the high seas. See UN Drug Trafficking Convention art. 17.
But it does not rule out such prosecutions either. To the
contrary, at least one United Nations body has suggested
that states may exercise jurisdiction under the convention
over persons found engaging in illegal activities on stateless
vessels, in combination with domestic sources of authority.
See Commission on Crime Prevention and Criminal Justice,
Outcome of the Expert Group Meeting on Transnational
Organized Crime at Sea, held in Vienna, Austria, on 5-6
April 2016, U.N. Doc. E/CN.15/2016/CRP.3, ¶ 18 (May
19, 2016) (recognizing debate over enforcement activity
against perpetrators found on stateless vessels but observing
that “if a State is party to the [UN Drug Trafficking
Convention], it should exercise jurisdiction over vessels
without nationality”).
To implement the UN Drug Trafficking Convention, several
European states adopted the 1995 Council of Europe
Convention on Illicit Traffic by Sea. That convention provides
further support for the proposition that international law
welcomes prosecutions by the seizing nation of those found
engaged in drug trafficking on stateless vessels: It not
only allows but requires parties to prosecute persons found
trafficking drugs on stateless vessels. See Agreement on
Illicit Traffic by Sea, Implementing Article 17 of the United
Nations Convention Against Illicit Traffic in Narcotic Drugs
and Psychotropic Substances art. 3, C.E.T.S. 156 (1995)
(mandating that “each Party shall take such measures as may

be necessary to establish its jurisdiction over the relevant
offen[s]es committed on board a vessel which is without
nationality, or which is assimilated to a vessel without
nationality under international law”).4
4

See also Agreement Concerning Co-Operation in
Suppressing Illicit Maritime Air Trafficking in Narcotic
Drugs and Psychotropic Substances in the Caribbean
Area (not yet in force) (signed by the United States on
April 10, 2003) (providing the same).

Several other international law instruments similarly leave
open the possibility of states taking law enforcement action
against persons found on stateless vessels. Such instruments
typically use language indicating that states may take action
“in accordance with relevant domestic and international law”
after searching a stateless vessel on the high seas. See
Brownlie's Principles, supra, at 291 (explaining that this
language “perpetuates the ambiguity regarding the exercise
of prescriptive jurisdiction and enforcement over stateless
vessels”). For example, the 2000 Migrant Smuggling Protocol
indicates with respect to vessels without nationality that
“[i]f evidence confirming the suspicion [of smuggling] is
found,” the boarding State “shall take appropriate measures
in accordance with relevant domestic and international law.”
See Protocol Against the Smuggling of Migrants by Land,
Sea and Air, Supplementing the United Nations Convention
Against Transnational Organized Crime art. 8(7), U.N.T.S.
2241 (2000) (emphasis added).
Likewise, the United Nations Straddling Fish Stocks
Agreement suggests that states may take enforcement action
against stateless fishing vessels for illegal *11 fishing “in
accordance with international law,” but does not specify
what such action might entail. See Agreement for the
Implementation of the Provisions of the United Nations
Convention on the Law of the Seas of 10 December 1982
Relating to the Conservation and Management of Straddling
Stocks and Highly Migratory Fish Stocks art. 21(17),
Conference on Straddling Fish Stocks and Highly Migratory
Fish Stocks, 6th Sess., U.N. Doc. A/CONF.164/37 (Sept.
8, 1995); see also Douglas Guilfoyle, Shipping Interdiction
and the Law of the Sea 108 (2009) (observing that this
language “accommodat[es] divergent views as to prescriptive
and enforcement jurisdiction over stateless vessels at general
international law”). Moreover, various regional fisheries
organizations have encouraged states to take legal action
where evidence is found of illegal fishing on stateless
vessels.5 See Guilfoyle, Shipping Interdiction and the Law of

8 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

7

United States v. Aybar-Ulloa, 987 F.3d 1 (2021)

the Sea, supra, at 129 (explaining that the Northeast Atlantic
Fisheries Commission Scheme “appears to directly encourage
the adoption of national laws permitting extraterritorial
enforcement action against stateless vessels,” even if, like the
UN Drug Trafficking Convention, it does not itself provide for
such enforcement measures); Rosemary Rayfuse, Non-Flag
State Enforcement in High Seas Fisheries 330-31 (2004).
5

See, e.g., International Commission for the Conservation
of Atlantic Tunas (ICCAT), Recommendations by
ICCAT on Vessel Sightings, ¶ 3 (June 20, 2020) (“If
the vessel is confirmed to be without nationality, a
competent authority ... is encouraged to inspect the
vessel, consistent with international law and, if evidence
so warrants, the Contracting Party is encouraged to
take such action as may be appropriate, in accordance
with international law.”); Northeast Atlantic Fisheries
Commission, Scheme of Control and Enforcement, art.
38(2) (Feb. 7, 2020); see also Indian Ocean Tuna
Commission, Resolution 16/05 on Vessels Without
Nationality (Sept. 27, 2016); United Nations Food
and Agriculture Organization, Implementation of the
International Plan of Action to Prevent, Deter and
Eliminate Illegal, Unreported, and Unregulated Fishing
14-15 (2002) (“Taking action against [stateless] vessels
should be a high priority, because their very statelessness
frustrates the primary means to control fishing activity
on the high seas -- through flag State jurisdiction.”).

Moreover, certain bilateral instruments to which the United
States is a party explicitly leave open the possibility of states
taking enforcement action against persons found on board
stateless vessels where the evidence so warrants. See, e.g.,
Agreement between the Government of the United States of
America and the Government of the Dominican Republic
Concerning Maritime Counter-Drug Operations, U.S.-Dom.
Rep., Mar. 23, 1995, T.I.A.S. No. 12620 (providing that
counter-drug operations pursuant to the agreement may
be carried out against vessels “without nationality,” but
also noting under the protocol to the agreement that
law enforcement personnel are to act in accordance with
international law when engaging in boardings and searches);
Agreement between the United States of America and Cyprus
Concerning Cooperation to Suppress the Proliferation of
Weapons of Mass Destruction, Their Delivery Systems, and
Related Materials by Sea, U.S.-Cyp., July 25, 2005, T.I.A.S.
06-112 (including stateless vessels among the vessels against
which operations may be undertaken under the agreement);
Agreement between the United States of America and Belize
Concerning Cooperation to Suppress the Proliferation of
Weapons of Mass Destruction, Their Delivery Systems, and

Related Materials by Sea, U.S.-Blz., Oct. 29, 2005, T.I.A.S.
05-1019 (same); see also United States v. Bravo, 489 F.3d 1,
4 (1st Cir. 2007) (recounting that the claimed flag *12 state
could not confirm registry of the vessel and authorized the
United States to proceed with law enforcement action under
“international law”).

2.
Aybar insists that UNCLOS nevertheless prohibits his
prosecution. He relies on Article 110, which provides a right
to visit ships suspected of being without nationality and
to search those ships if suspicion of statelessness remains
after checking the ship's documents. See also Aybar-Ulloa,
913 F.3d at 62-63 (Torruella, J., dissenting in part) (arguing
that the unilateral extension of domestic jurisdiction over a
stateless vessel on the high seas without a nexus violates
UNCLOS). But in recognizing a right to visit certain ships,
including a ship “without nationality,” Article 110 does
not prohibit the prosecution of those on board. It simply
remains silent as to whether and when the visiting nation may
prosecute persons found on the ship.
Aybar argues that we should draw a negative inference from
that silence because other articles of UNCLOS do contain
express grants of authority to penalize persons found on
certain vessels. For example, Article 105 authorizes the
arrest and punishment of persons found on pirate ships.
Similarly, Articles 99 and 109 expressly grant the power to
penalize persons for engaging in slavery and unauthorized
broadcasting, respectively. We reject the negative inference
Aybar would have us draw for two reasons.
First, and most simply, there are obvious differences between
the examples given and that of a stateless vessel, undercutting
any negative inference that could be drawn from the presence
of express grants in some articles but not others. For
starters, a ship engaged in piracy may retain its nationality.
UNCLOS art. 104. So there was a reason for Article 105
to expressly confirm that any state can exercise universal
jurisdiction to seize and prosecute individuals on such a ship
-- otherwise, it might have been possible to argue that only
the ship's flag state would be able to seize and prosecute
those individuals. Under this reading, Article 105 grants
no new authority. Similarly, because vessels that engage
in unauthorized broadcasting can retain their nationality,
an exception was needed to overcome the presumption of
exclusive flag-state jurisdiction where it was desirable for

9 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

8

United States v. Aybar-Ulloa, 987 F.3d 1 (2021)

impacted states to have the possibility of arresting “person[s]
or ship[s] engaged in” this activity. See id. art. 109(4)
(providing that states receiving transmissions or suffering
from interference may exercise their jurisdiction to prosecute
unauthorized broadcasting). Further, because slave ships also
generally retain their nationality, Article 99 had to expressly
impinge on flag-state jurisdiction in order to declare that
enslaved persons found on any ship are ipso facto free.
Without these provisions -- which codify limitations on the
rights of flag states where their ships engage in conduct of
severe concern to the international community -- other states
may have presumed that their hands were tied.

extend jurisdiction over stateless vessels); see also Fisheries
Jurisdiction Case (Spain v. Canada), Jurisdiction, Judgment,
1998 I.C.J. Rep. 432, ¶¶ 19, 61 64, 75 (Dec. 4) (describing
Canada's seizure of a vessel under its Coastal Fisheries
Protection Act, adopted to cover high seas areas governed
by the Northwest Atlantic Fisheries Organization, and the
subsequent arrest and prosecution of its master for illegal
fishing under that law, as well as Spain's response that such
law enforcement actions were permissible only if the vessel
were stateless); Molvan v. Attorney-General for Palestine,
A.C. 351 (1948); Guilfoyle, “The High Seas,” supra, at 218
(noting that the United States and United Kingdom have
historically taken the view that no nexus is required to extend

Not so in the case of the stateless vessel. The presumption
of flag-state jurisdiction, which arguably made the express
grants of authority in Articles 99, 105, and 109 necessary,
simply does not apply where the vessel at issue is stateless.
Rather, as we have explained, stateless vessels are treated
as subject to the exercise of authority by any nation.
Accordingly, the absence of an express grant of authority to
seize and prosecute persons on board a stateless vessel in
Article 110 does not, on its own, establish that Aybar's seizure
and prosecution are prohibited by UNCLOS.

national jurisdiction over a stateless vessel).6 That there is
not even more evidence of similar state practices engenders
no surprise, given the practical difficulties of seizing ships
on the high seas. “[W]hile international law may allow
states to arrest stateless vessels, states may not yet have
appropriated that right unto themselves.” Rayfuse, supra, at
330 (explaining that the absence of a widespread practice
of arresting and prosecuting stateless fishing vessels may
“reflect[ ] ... the reality that few states have the physical
capability to arrest these vessels on the high seas” and that
“states may lack a basis in their domestic legal framework
permitting their authorities to take such action”).

Second, Aybar's argument cannot be squared with the
approach taken in the *13 international instruments and
undertakings we have described. If a categorical rule against
the extension of domestic jurisdiction over stateless vessels
could be found in UNCLOS Article 110, it is unlikely that
subsequent instruments mentioning stateless vessels could
avoid it or that their drafters would have been unaware of
it. Instead, it appears that in the decades since UNCLOS
was concluded, the relevant international organizations and
actors have resolved to leave the issue to the judgment
of states. See Guilfoyle, “The High Seas,” supra, at 218
(explaining that “[t]reaty law is silent” on the extension of
national jurisdiction over stateless vessels without a nexus
and “sometimes deliberately ambiguous” such that existing
treaty language “covers divergent national (and academic)
interpretations”).
Our reading of international law does not render the United
States an outlier. Other nations have also adopted laws and
regulations permitting exercises of domestic jurisdiction over
stateless vessels and persons found on board them. See United
Nations Food and Agriculture Organization, Implementation
of the International Plan of Action to Prevent, Deter and
Eliminate Illegal, Unreported, and Unregulated Fishing 15
(2002) (discussing laws adopted by Canada and Norway to

6

See generally Coastal Fisheries Protection Act
(R.S.C., 1985, c. c-33) § 5.5 (Canada); Marine
Resources Act no. 37 (6 June 2008) (Norway),
available at https://www.fiskeridir.no/English/Fisheries/
Regulations/The-marine-resources-act; Policing and
Crime Act 2017, c.3 § 84(1)(b) (United
Kingdom), available at https://www.legislation.gov.uk/
ukpga/2017/3/section/84.

E.
We add, finally, several caveats.
First, our holding makes no attempt to assert universal
jurisdiction over drug trafficking offenses. The holding does
not apply at all to the large majority of vessels sailing on the
high seas. Rather, it applies only to vessels flouting order and
custom on the high seas by eschewing the responsibilities and
protections of the flag-state system.
Second, we do not suggest that international law does not
apply to the seizure of the vessel or that persons on board such
*14 vessels fall outside of the protection of international

10 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

9

United States v. Aybar-Ulloa, 987 F.3d 1 (2021)

law. See Rayfuse, supra, at 57 (explaining that “a ship without
nationality[ ] is not necessarily a ship without law[,] ... [b]ut
it is a ship without protection” (quoting D.P. O'Connell, 2
The International Law of the Sea 755 (1984))). Fundamental
principles of customary international human rights law, and
requirements of due process under United States law, may
well still apply in circumstances not present in this appeal.
See Brownlie's Principles, supra, at 285 (noting that stateless
ships “are not outside the law altogether,” as “their occupants
are protected by elementary considerations of humanity”);
Maarten Den Heijer, Europe and Extraterritorial Asylum 238
(2012) (recognizing that the “taking of coercive measures”
against stateless vessels “is likely to come within the ambit of
human rights law”); see also United States v. Ballestas, 795
F.3d 138, 148 (D.C. Cir. 2015); United States v. Yousef, 327
F.3d 56, 111-12 (2d Cir. 2003) (citing United States v. Davis,
905 F.2d 245, 248-49 (9th Cir. 1990)); Cardales, 168 F.3d at
553.
While the fundamental “arbitrariness or unfairness” of a
prosecution may depend in some part on notions of “fair
warning” under either domestic or international law, see
United States v. Van Der End, 943 F.3d 98, 106 (2d Cir.
2019), such “fair warning” has certainly been given in the
case of drug trafficking. Although not a crime that gives
rise to universal jurisdiction, see Restatement (Fourth) §
413 n.1 (explaining that “universal jurisdiction is limited
to the most serious offenses about which a consensus has
arisen for the existence of universal jurisdiction”); United
States v. Cardales-Luna, 632 F.3d 731, 740-41 (1st Cir. 2011)
(Torruella, J., dissenting), drug trafficking has long been
regarded as a serious crime by nearly all nations. See United
Nations Treaty Depositary, Status of the United Nations
Convention against Illicit Traffic in Narcotics (accessed
August 9, 2020) (indicating that 191 states are party to the UN
Drug Trafficking Convention); see also 46 U.S.C. § 70501(1)
(recognizing that “trafficking in controlled substances aboard
vessels is a serious international problem” that “is universally
condemned”).
Third, we opt not to decide one way or the other whether the
United States may prosecute a foreign citizen engaged in drug
trafficking on a stateless vessel where the United States never
boarded and seized the vessel. Nor do we reach the question
of whether the MDLEA by its own terms reaches such a
situation. In this case the law has been applied to a person
apprehended on board the stateless vessel when stopped and
boarded by United States Coast Guard officers. Although
the government seeks a broader ruling in its supplemental

briefing, it does not abandon its argument that “MDLEA was
not unconstitutional as applied to this case because Aybar's
stateless vessel was intercepted on the high seas” by the
United States. And resolving this “as applied” argument is all
that is necessary to dispose of this appeal.
Finally, nothing in our reasoning forecloses a successful claim
of diplomatic protection by a foreign state, should a foreign
state make such a petition on behalf of its national. See
Barnes, supra, at 315; Churchill & Lowe, supra, at 172. What
we hold, instead, is that international law does not generally
prohibit the United States from prosecuting drug traffickers
found on a stateless vessel stopped and boarded by the United
States on the high seas as if they had been found on a United
States vessel subject to the territorial jurisdiction of the United
States. Therefore, even if Congress's power under the Define
and Punish Clause is cabined by international *15 law,
Aybar's prosecution under MDLEA would not exceed any
such limitation.

III.
That leaves only Aybar's challenge to his sentence. For the
reasons stated in the panel opinion, we vacate and remand
for resentencing under the Sentencing Commission's clarified
guidance, as reflected in Amendment 794. See Aybar-Ulloa,
913 F.3d at 56–57 (citing United States v. Sarmiento-Palacios,
885 F. 3d 1, 6 (1st Cir. 2018)).

IV.
For the foregoing reasons, we affirm the defendant's
conviction, vacate the defendant's sentence, and remand for
resentencing.
BARRON, Circuit Judge, concurring in the judgment.
Johvanny Aybar-Ulloa (“Aybar”) contends that Article I,
Section 8, Clause 10 of the United States Constitution,
which authorizes Congress to “define and punish ... Felonies
committed on the high Seas,” provides the sole constitutional
source of power for the Maritime Drug Law Enforcement
Act (“MDLEA”), 46 U.S.C. §§ 70501-70508. He further
argues that there is an implicit limit on this power, rooted
in the law of nations, and that this limit restricts Congress's
authority to rely on this Clause to extend our country's
domestic criminal laws to foreign nationals who violate them

11 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

10

United States v. Aybar-Ulloa, 987 F.3d 1 (2021)

while they are outside the territorial jurisdiction of the United
States. He therefore contends that his conviction under the
MDLEA is unconstitutional, because he is a foreign national
who is alleged to have engaged in drug trafficking while in
international waters and on a vessel that is not registered to
the United States.

without relying on either a claim that the crime involved
here qualifies as a universal jurisdiction offense or that the
MDLEA is the product of our nation's valid assertion of
its protective jurisdiction, the majority nevertheless rejects
Aybar's constitutional challenge.
7

In pressing this contention, Aybar asserts that his prosecution
for violating the MDLEA cannot be deemed to accord with
international law on the ground that the offense for which he
was convicted is a crime against all nations. He emphasizes
that this is so because international law does not recognize
drug trafficking as a universal jurisdiction offense. He further
asserts that there is no basis under international law for
permitting the United States to criminalize the conduct for
which he was convicted based on an assertion of what is
known as protective jurisdiction. This is so, he contends,
because there was no nexus between his drug trafficking and
the United States, as the vessel that he was on left from
one foreign country and was headed to another. See United
States v. Robinson, 843 F.2d 1, 3-4 (1st Cir. 1988) (Breyer, J.)
(noting “forceful argument” against application of protective
principle to encompass drug trafficking on the high seas).
There is a fair amount of support for the contention that
Article I's Define and Punish Clause is impliedly limited by
the law of nations in ways that constrain Congress's authority
to rely on that Clause to subject foreign nationals to our
criminal laws for conduct that they engage on while they
are on foreign vessels -- even when those vessels are on the
high seas. See United States v. Furlong, 18 U.S. (5 Wheat.)
184, 197-98, 5 L.Ed. 64 (1820) (“Congress ... ha[s] no
right to interfere” with other nations by “punishing [murders
by foreign nationals] when committed within the [foreign]
jurisdiction, or, (what is the same thing,) in the vessel
of another nation.”); see also Congressman John Marshall,
Speech to the House of Representatives (Mar. 7, 1800), in
10 Annals of Cong. 607 (1800) (hereinafter “Speech of John
Marshall”) (arguing that the Define and Punish Clause cannot
authorize federal “jurisdiction over offences, committed on
*16 board a foreign ship against a foreign nation” on the
high seas); Justice James Wilson, Charge to the Grand Jury of
the Circuit Court for the District of Virginia (May 23, 1791),
reprinted in 2 The Documentary History of the Supreme Court
of the United States, 1789-1800, at 179 (Maeva Marcus ed.,
1988) (suggesting that “no state or states can; by treaties or
municipal laws, alter or abrogate the law of nations” to the
extent of reaching the crime of murder by a foreigner aboard
a foreign flag ship).7 But, without disputing that point, and

In fact, the United States itself early on took the position
before the Supreme Court that the Define and Punish
Clause was subject to this limitation, even though it takes
the opposite view here. See United States v. Palmer, 16
U.S. (3 Wheat.) 610, 620, 4 L.Ed. 471 (1818) (argument
of Mr. Blake on behalf of the United States) (“A felony,
which is made a piracy by municipal statutes, and was not
such by the law of nations, cannot be tried by the courts of
the United States, if committed by a foreigner on board a
foreign vessel, on the high seas; because the jurisdiction
of the United States, beyond their own territorial limits,
only extends to the punishment of crimes which are
piracy by the law of nations.”).

The majority does so because, it rightly points out, although
Aybar was on the high seas while he was in possession of
the cocaine that led to his MDLEA charges, he was not at
that time on a foreign vessel. Instead, he was on a stateless
one that our national authorities had interdicted in accord with
international law. Thus, in the majority's view, Aybar was
within the territorial jurisdiction of the United States when
he violated the MDLEA no less than if he had been on a
ship flying our nation's flag. See Op. at 2–3, 5–7. For that
reason, the majority concludes, the premise on which Aybar's
constitutional challenge rests -- that he violated the MDLEA
while he was outside the territorial jurisdiction of the United
States -- is mistaken. See id. at 14–15.
I do not disagree with the majority that Aybar's constitutional
challenge must be rejected. I write separately, however,
because I reach that conclusion through a different, albeit
somewhat related, line of reasoning.

I.
The majority observes that, under the law of nations, a foreign
national on a U.S.-flagged vessel is within the territorial
jurisdiction of the United States even when that vessel is
in international waters. Id. at 2–3, 6–7. The majority also
notes that, under the law of nations, a country's war or
clearly marked law enforcement ship may board and search
a vessel in international waters when there is adequate
reason to suspect that the vessel is stateless. Id. at 6; see,

12 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

11

United States v. Aybar-Ulloa, 987 F.3d 1 (2021)

e.g., Restatement (Third) of the Foreign Relations Law of
the United States § 522(2)(b) & n.7 (1987) (hereinafter
“Restatement (Third)”) (“[A] warship or clearly-marked law
enforcement ship of any state may board ... a ship ... if there
is reason to suspect that the ship ... is without nationality”;
“[a] stateless vessel is not entitled to ... protection ...
against boarding and search.”); Brownlie's Principles of
Public International Law 285, 292 (James Crawford ed.,
9th ed. 2019) (hereinafter “Brownlie's Principles”) (noting
statelessness as a “circumstance[ ] in which a warship may
exercise the right of visit on the high seas”); Malcolm N.
Shaw, International Law 457 (8th ed. 2017) (“A *17 ship
that is stateless, and does not fly a flag, may be boarded and
seized on the high seas.”).
But, although the Third and Fourth Restatement of the
Foreign Relations Law of the United States clearly establish
the soundness of these twin propositions, see Restatement
(Third) §§ 501 cmt. c, 502(2) & cmt. d, 522(2)(b) &
n.7; Restatement (Fourth) of the Foreign Relations Law of
the United States § 408 cmt. b & n.3 (2018), I do not
read them to go further and establish that the prevailing
view of the law of nations is that the interdicting country
acquires the same territorial jurisdiction over the vessel's
occupants as it acquires over the vessel itself. In fact, as the
majority recognizes, Op. at 8–9, experts in international law
have long noted the disagreement that exists over that very
view, even in the case in which the interdicting country's
officials have boarded the vessel. See Brownlie's Principles
at 292 (noting “two schools of practice” on the question of
exercising jurisdiction over stateless vessels, one of which
is the U.S. practice that also permits criminal prosecution
of those aboard and the other which requires “some further
jurisdictional nexus,” and explaining that the latter “position
[is] more consistent with existing treaty practice”); Douglas
Guilfoyle, “The High Seas,” in The Oxford Handbook of the
Law of the Sea 216, 218 (Donald R. Rothwell et al. eds.
2015) (“[S]cholarly views vary” on “[t]he consequences of
statelessness,” and there are equally “divergent national ...
interpretations.”); Douglas Guilfoyle, Shipping Interdiction
and the Law of the Sea 17-18 (2009) (similar). Nor have
these commentators suggested that, insofar as there is a
prevailing view in this debate, it is one that is at odds
with the understanding that Aybar asks us to conclude that
international law embraces. See R.R. Churchill & A.V. Lowe,
The Law of the Sea 214 (3d ed. 1999) (“[I]t has been held ...
that [stateless] ships enjoy the protection of no State,” but the
“better view appears to be that there is [still] a need for some
[additional] jurisdictional nexus in order that a State may

extend its laws to those on board a stateless ship and enforce
the laws against them.” (emphases added)); Richard Barnes,
“The International Law of the Sea and Migration Control,”
in Extraterritorial Immigration Control: Legal Challenges
130-33 (B. Ryan and V. Mitsilegas eds., 2010) (noting that
“US jurisprudence” notwithstanding, “it is not at all clear that
attempts to circumvent the requirement for a jurisdictional
nexus ... would be consistent with the law of the sea”; “the
fact that right of visit and matters of enforcement are treated
separately in the [United Nations Convention on the Law of
the Sea] suggests that a positive right of visit does not imply
wider enforcement powers”).
Thus, insofar as the majority's understanding of the scope of
territorial jurisdiction over Aybar under the law of nations is
tied to the fact that the stateless vessel that he was on had
been seized and boarded by the United States' authorities in
the course of their attempt to determine the nation (if any) to
which the vessel belonged, see Op. at 9 n.3, 33, I cannot find
any clear support for that understanding in either the pertinent
Restatements or the relevant learned commentary. I should
add that I also am not aware of any precedent from U.S. courts
that would provide such support.
There is precedent from our country's courts that stakes
out a more expansive view of territorial jurisdiction under
the law of nations than Aybar would have us countenance.
But, that precedent, as I read it, does not tie that more
expansive view to a showing that the officials from the
nation that is claiming territorial jurisdiction *18 over the
foreign national on a stateless vessel in international waters
had seized and boarded the vessel in question pursuant to
their recognized right under international law to determine
its status. Rather, that precedent appears to hold that foreign
nationals on stateless vessels in international waters are
subject to domestic prosecution by the United States for
their conduct on board them pursuant to an assertion of the
United States' territorial jurisdiction simply because there
is support for all nations exercising such jurisdiction over
vessels that are both stateless and in such waters. See, e.g.,
United States v. Rendon, 354 F.3d 1320, 1325 (11th Cir.
2003) (“Because stateless vessels do not fall within the veil
of another sovereign's territorial protection, all nations can
treat them as their own territory and subject them to their
laws.” (quoting United States v. Caicedo, 47 F.3d 370, 373
(9th Cir. 1995))); Caicedo, 47 F.3d at 373 (“Such vessels
are ‘international pariahs’ ... [and] subject themselves to
the jurisdiction of all nations ‘solely as a consequence of
the vessel's status as stateless.’ ” (quoting United States v.

13 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

12

United States v. Aybar-Ulloa, 987 F.3d 1 (2021)

Marino-Garcia, 679 F.2d 1373, 1382-83 (11th Cir. 1982)));
United States v. Victoria, 876 F.2d 1009, 1010 (1st Cir.
1989) (Breyer, J.) (“[A]s United States courts have interpreted
international law, that law gives the ‘United States authority
to treat stateless vessels as if they were its own.’ ” (alteration
omitted) (quoting United States v. Smith, 680 F.2d 255, 258
(1st Cir. 1982))); United States v. Pinto-Mejia, 720 F.2d 248,
260-61 (2d Cir. 1983) (“[S]tateless vessels on the high seas
are, by virtue of their statelessness, subject to the jurisdiction
of the United States.”).
For these reasons, I see no clear support in either case law
or commentary for the comparatively modest proposition that
persons on stateless vessels that a foreign country's officials
have seized and boarded pursuant to their recognized right
to visit it are subject to that country's territorial jurisdiction
under international law. Instead, I find no judicial precedent
supporting that particular proposition, and much debate
within the relevant commentary about its soundness.
There is another reason that prevents me from signing on to
the majority's analysis. This reason has to do with the fact that
I understand the MDLEA to have been premised on a broader
theory of territorial jurisdiction under the law of nations than
the majority is willing to embrace. That broader theory makes
neither the physical presence of our authorities on a stateless
vessel in the high seas or those authorities' interaction with
that vessel of any legal significance in determining whether
the occupants on that vessel come within our country's
territorial jurisdiction. Instead, that broader theory makes the
fact that the occupants are on a vessel that is both stateless
and in international waters in and of itself the reason that
their conduct while on board may be said to occur within the
territorial jurisdiction of the United States. The notion that
this more expansive theory of territorial jurisdiction under
international law grounds the MDLEA finds support in the
text of the statute itself. The MDLEA expressly criminalizes
drug trafficking on any “vessel subject to the jurisdiction
of the United States,” 46 U.S.C. § 70503(e)(1), and then
proceeds to define such vessels expansively to “include[ ]”
not just those whose crews fail to make a claim that they
belong to another nation “on request of an officer of the
United States,” id. § 70502(d)(1)(B) (deeming such vessels to
be “without nationality,” i.e., stateless), but also those vessels
aboard which the crew's “claim of registry ... is denied” or is
“not affirmatively and unequivocally” affirmed “by the nation
whose registry is claimed,” without reference to a request
being made by a *19 United States officer at all, id. §
70502(d)(1)(A), (C) (same). In these respects, the MDLEA

notably fails to make the fact that U.S. authorities either have
boarded the vessel or even interacted with the vessel's crew
at the time of the commission of the offense a precondition
for the vessel being subject to the jurisdiction of the United
States. As a result, the MDLEA, by its terms, appears to make
the bare fact that a foreign national engages in drug trafficking
while on a stateless vessel in international waters a trigger for
subjecting the foreign national to the reach of our domestic
criminal laws.
To be sure, Aybar does not dispute on appeal that his vessel
was in fact boarded by the U.S. authorities who interdicted it.
But, it is not evident to me that the jurisdictional basis for his
MDLEA conviction was premised on any such finding, as it
is not evident to me that any legal significance was attributed
to that fact in convicting him of violating the MDLEA.8
8

Aybar's indictment charging him with drug trafficking
under the MDLEA mentioned only that he did so “on
board a vessel subject to the jurisdiction of the United
States; that is, a vessel without nationality,” without
noting the physical presence of U.S. officials on board
the vessel at the time of the offense (or even any U.S.
“interaction” with the vessel or the crew), and he did
not admit to the vessel having been boarded in pleading
guilty to the offense charged in the indictment, as he
was not asked to do so, given that none of the elements
of the offense made the fact of the boarding of legal
relevance to his commission of it. The government's
submissions to the District Court concerning whether
Aybar was on board a vessel subject to U.S. jurisdiction,
moreover, did not purport to make the finding that he
was dependent on the fact of the vessel having been
boarded by such officials. Finally, the District Court
rejected Aybar's constitutional challenge on the ground
that the United States had territorial jurisdiction over
him while he possessed the cocaine at issue without
purporting to premise that conclusion on the fact that
U.S. officials had actually boarded his vessel. Thus,
I am dubious that a conclusion that his conviction
may be affirmed against this international-law-based
constitutional challenge to Congress's Article I power
is sustainable on the basis of the vessel having been
boarded rather than on the more expansive theory that
made his presence on a stateless vessel in international
waters itself dispositive of whether he was subject to
our nation's jurisdiction. Cf. United States v. Lopez, 514
U.S. 549, 559, 115 S.Ct. 1624, 131 L.Ed.2d 626 (1995)
(holding that the Gun-Free School Zones Act “exceeds
the authority of Congress to ‘regulate Commerce’ ” as it
“neither regulates a commercial activity nor” “contains

14 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

13

United States v. Aybar-Ulloa, 987 F.3d 1 (2021)
[a] jurisdictional element which would ensure, through
case-by-case inquiry, that the firearm possession in
question affects interstate commerce” (emphasis added)
(quoting U.S. Const. Art. I § 8 cl. 3)); Richard H. Fallon,
Jr., As-Applied and Facial Challenges and Third-Party
Standing, 113 Harv. L. Rev. 1321, 1332-34 (2000).

For that reason, it is not surprising to me that the government
describes the question concerning the scope of territorial
jurisdiction that Aybar's constitutional challenge to his
MDLEA conviction implicates in terms that render both the
physical presence of our authorities on his vessel and their
interaction with it legally irrelevant. In fact, it would be
surprising to me if the government were to embrace the
view that, to ensure that the MDLEA would be enforced
against a foreign national consonant with the law of nations,
our law enforcement authorities must board the defendant's
vessel (or even make contact with it) while he is both on it
and in possession of the drugs. Such a view would appear
to require the conclusion that our government could avoid
flouting the law of nations in enforcing the MDLEA only by
accepting that a foreign national on a stateless vessel on the
high seas could protect himself from the statute's reach merely
by dumping contraband from his vessel (stateless though it
is conceded to be) as soon as a ship carrying our country's
law enforcement personnel is in view. *20 Yet, in fact,
the government has enforced the MDLEA even when the
defendant had finished possessing the drugs at issue before
U.S. authorities had made any contact with the stateless vessel
on which the offense had occurred. See, e.g., Rendon, 354
F.3d at 1322–23; Caicedo, 47 F.3d at 371.
Of course, the fact that the government makes this broader
assertion of territorial jurisdiction in asking us to reject
Aybar's constitutional challenge does not mean that the
government's view of the scope of the United States'
territorial jurisdiction under international law is correct. The
Restatements and commentary described above provide no
clear support for the notion that, under the law of nations,
all countries are entitled to assert territorial jurisdiction over
any foreign national in international waters who is on board
a vessel that is stateless simply because that vessel is in those
waters and does not belong to any nation. In fact, as I have
explained, those materials do not even provide clear support
for the relatively narrower but still broad proposition that a
nation that exercises its right to visit a vessel in international
waters that it suspects is stateless automatically acquires the
right to assert domestic criminal jurisdiction over that vessel's
foreign-national occupants.

I have noted above that a number of United States Circuit
Courts have endorsed the view that, under the law of nations, a
person's presence on a stateless vessel in international waters
is in itself enough to make that person subject to a foreign
nation's domestic criminal laws for the conduct in which
he engages while on board -- if, that is, the nation chooses
to apply those laws to him. See, e.g., Rendon, 354 F.3d at
1325; Caicedo, 47 F.3d at 372; Pinto-Mejia, 720 F.2d at
260-61. Thus, it is true that these courts have signed on to the
government's expansive view of territorial jurisdiction under
the law of nations.
But, in doing so, these courts have supported that view merely
by citing to other circuit-level precedents, see, e.g., Rendon,
354 F.3d at 1325; Caicedo, 47 F.3d at 372; Victoria, 876
F.2d at 1010-11, or by treating international law authorities
that clearly establish that a nation has territorial jurisdiction
over a vessel in international waters that is stateless as if
such authorities also establish that a nation has territorial
jurisdiction over the foreign nationals who are on such a
vessel, see Pinto-Mejia, 720 F.2d at 260-61; Marino-Garcia,
679 F.2d at 1382-83; Smith, 680 F.2d at 258. For that reason,
I do not see how these precedents help to demonstrate that the
law of nations is what the government says it is.

II.
The lack of clear authority for either the government's
(or the majority's more modest but still broad) view of
territorial jurisdiction under the law of nations does not
necessarily compel us to hold that the United States lacks
the constitutional authority to extend the MDLEA to Aybar's
conduct. Even if we were to assume that the law of nations
places limits on Congress's power under the Define and
Punish Clause to subject foreign nationals on foreign vessels
in international waters to our domestic criminal laws, and
even if we were to assume that the United States may not
assert protective jurisdiction over drug trafficking merely
because it occurs on stateless vessels in international waters,
see Robinson, 843 F.2d at 3-4, it still may be that we are in
no position to conclude that the application of the MDLEA to
Aybar's conduct in this case would violate international law
-- and thus in no position to conclude that such application
would transgress Article I.
*21 A rule of international law that would insulate foreign
nationals on stateless vessels on the high seas from domestic
criminal jurisdiction would raise practical difficulties for law

15 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

14

United States v. Aybar-Ulloa, 987 F.3d 1 (2021)

enforcement authorities -- and not only for those from our
country. See Op. at 9–10. In light of those difficulties and the
degree of legal uncertainty that exists in this realm, it may be
that it would be proper for us to defer to our political branches'
judgment as to what the law of nations permits here.9 Cf.
United States v. Smith, 18 U.S. (5 Wheat.) 153, 159, 5 L.Ed.
57 (1820) (explaining that “there is a peculiar fitness in giving
the power to define as well as to punish; and there is not
the slightest reason to doubt that this consideration had very
great weight in producing the phraseology in question”); id. at
169-72 (Livingston, J., dissenting) (“The special power here
given to define ..., can be attributed to no other cause, than
to the uncertainty ... in the law of nations, and which it must
have been the intention of the framers of the constitution to
remove, by conferring on the national legislature the power
which has been mentioned.”).
9

Much like Congress in the MDLEA, the Executive
Branch has before taken the position that our laws
may punish drug trafficking by foreign nationals aboard
stateless vessels in the high seas consistently with
international law. See, e.g., Stopping “Mother Ships”
-- A Loophole in Drug Enforcement: Hearing on S.
3437 Before the Subcomm. to Investigate Juvenile
Delinquency of the H. Comm. on the Judiciary, 95th
Cong. 28 (1978) (statement of Morris Busby, Acting
Deputy Assistant Secretary, Dep't of St. Off. of Oceans
Aff.) (explaining in supporting a precursor bill to the
MDLEA that “making it a crime to possess drugs on
the high seas with an intent to distribute, whether or not
the intent was to distribute the[ ] drugs in the United
States” “where you have a ship without any nationality
on the high seas” “would comport with international
law”); Coast Guard Drug Law Enforcement: Hearing
on H.R. 2538 Before the Subcomm. on Coast Guard
and Navigation of the H. Comm. on Merchant Marine
and Fisheries, 96th Cong. 55 (1979) (statement of
Morris Busby, Director, Dep't of St. Off. of Ocean
Aff.) (elaborating that international law did, in his
Department's view, create “an exception which allows
us to board a vessel on the high seas which is without
nationality,” and further “recommend[ing] ... that [the
United States] make it a [prosecutable] violation for
[drug trafficking] to occur on board a vessel which is
stateless”; “[w]hile ordinarily the United States does not
favor a unilateral extension of jurisdiction ... over the
activities of non-U.S. citizens on board stateless vessels
without proof of some connection to the United States,
the serious nature of [the drug trafficking] problem, and
the fact that persons on board these stateless vessels
[generally] are engaged in narcotics trafficking aimed at

the United States, warrant an extension in this particular
case.”).

It may also be that, as the majority suggests, see Op. at 8–
10, there is a “general usage and practice of nations,” Smith,
18 U.S. (5 Wheat.) at 160-61, that supports the United States'
position. Other nations do not appear to have affirmatively
resisted our country's assertion of this expansive view of
territorial jurisdiction, and we are dealing with the peculiar
context of the high seas. Perhaps, then, it would be prudent
to reject Aybar's constitutional challenge to his conviction
for this additional reason, notwithstanding that the evidence
before us of this practice consists chiefly of what other nations
have not done in response to what ours has. See Andrew
W. Anderson, Jurisdiction over Stateless Vessels on the High
Seas: An Appraisal under Domestic and International Law, 13
J. Mar. L. & Com. 323, 331-32 (1982); Myres S. McDougal,
The Law of the High Seas in Time of Peace, 26 Naval War
C. Rev. 35, 36 (1973); Myres S. McDougal & William T.
Burke, The Public Order of the Oceans: A Contemporary
International Law of the Sea 1047 (1962).
But, I am wary of rejecting Aybar's constitutional challenge
by relying on either *22 a principle of deference to the
political branches that I am not sure obtains or a state practice
that is based only on the limited evidence of it that we have
here. Rather, I conclude that we -- as a lower court -- must
reject it due to the guidance supplied by the more than twocentury-old Supreme Court precedent to which the majority
gives great weight but ultimately concludes fails to dictate
how we must decide this case. See Op. at 7–9.

III.
That precedent, United States v. Holmes, 18 U.S. (5 Wheat.)
412, 5 L.Ed. 122 (1820), was among the cases that the
Supreme Court decided just decades after the Constitution's
ratification and that are sometimes referred to as the
“piracy cases,” G. Edward White, The Marshall Court and
International Law: The Piracy Cases, 83 Am. J. Int'l L. 727
(1989). The cases in this line of authority dealt with the
United States' power to prosecute defendants of a range of
citizenships and circumstances who shared the attribute of
having been indicted in our country pursuant to our criminal
justice system for murder, robbery, or other wrongdoing on
the high seas. See Holmes, 18 U.S. (5 Wheat.) 412; Furlong,
18 U.S. (5 Wheat.) 184; Smith, 18 U.S. (5 Wheat.) 153;
United States v. Klintock, 18 U.S. (5 Wheat.) 144, 5 L.Ed. 55

16 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

15

United States v. Aybar-Ulloa, 987 F.3d 1 (2021)

(1820); United States v. Palmer, 16 U.S. (3 Wheat.) 610, 4
L.Ed. 471 (1818).
These cases were decided amidst the then-swirling debate
over whether the law of nations permitted the United States
to assert domestic criminal jurisdiction over foreign nationals
who committed crimes while on the high seas. Compare
United States v. Robins, 27 F. Cas. 825, 832 (D.S.C. 1799)
(“There is no doubt that the circuit courts of the United
States have a concurrent jurisdiction” that allows the U.S.
government to prosecute the offense of murder aboard a
British ship on the high seas, “and this arises under the
general law of nations.”), with Speech of John Marshall at
598-99 (“It is not true that all nations have jurisdiction over
all offenses committed at sea. ... [T]he jurisdiction of th[is]
nation cannot extend to a murder committed by a British
sailor, on board a British frigate navigating the high seas under
a commission from his Britannic majesty. ... It follows that
no such common jurisdiction exists.”). And Holmes itself
implicated that debate, as it concerned a challenge to the legal
basis for a U.S. criminal prosecution of three defendants -two foreigners and one U.S. citizen -- who had been indicted
for knifing and throwing overboard an individual while they
were on a vessel on the high seas that did not belong to the
United States. See Holmes, 18 U.S. (5 Wheat.) at 412-13; see
also The Trial of William Holmes, Thomas Warrington, and
Edward Rosewain on an Indictment for Murder on the High
Seas Before the Circuit Court of the United States 5 (Boston,
Joseph C. Spear 1820) (hereinafter “The Holmes Trial”).
Specifically, Holmes posed the following question: when, if
ever, is “murder” by a foreign national “committed on the high
seas, ... an offence cognizable by the Courts of the United
States”? Holmes, 18 U.S. (5 Wheat.) at 417. The Supreme
Court answered as follows.
The Court first observed that, if the murder “be committed
on board of a foreign vessel by a citizen of the United States,
or on board of a vessel of the United States by a foreigner,
the offender is to be considered ... as belonging to the nation
under whose flag he sails.” Id. at 417 (emphasis added).
But, the Court then continued, there would be jurisdiction in
our nation's courts over such a prosecution “if [the vessel]
had no national character, but was possessed and held by
pirates, or *23 persons not lawfully sailing under the
flag of any foreign nations.” Id. (emphasis added). And, the
Court reiterated this same understanding in the certificate,10
explaining: “the said Circuit Court had jurisdiction of the
offence charged in the indictment [i.e., murder], if the vessel,

on board of which it was committed, had, at the time of
the commission thereof, no real national character but was
possessed and held by pirates, or by persons not lawfully
sailing under the flag, or entitled to the protection of any
government whatsoever.” Id. at 419 (emphasis added).
10

The “Certificate” “blend[ed] the views of all the justices
together on the broadest common position.” Alfred P.
Rubin, The Law of Piracy 141 (1988).

Holmes appears to state, then, that a foreign national is subject
to the domestic criminal jurisdiction of the United States if
he commits a felony while on a vessel on the high seas that
is “not lawfully sailing under the flag of any foreign nation.”
Id. at 417 (emphasis added). For this reason, Holmes appears
to sink Aybar's constitutional challenge -- by rejecting the
view that a stateless vessel in international waters is a foreign
vessel, and by supporting the view that international law does
not bar a nation from extending its domestic criminal laws
to persons who are engaged in felonious conduct on board
vessels lacking any national character while those vessels are
in international waters.11
11

It is worth noting that the Holmes defendants were
apprehended only after they eventually sailed their ship
into a harbor in Scituate, Massachusetts; there is no
indication that U.S. officials were aboard or interacted
with the vessel at the time of the murder. See The Holmes
Trial at 6.

Recognizing the potential threat that Holmes presents, Aybar
seeks to keep his challenge afloat in the following way.
He argues that Holmes is best read to address only the
extent of Congress's power to regulate the conduct of “piracy
committed either by a citizen or a foreigner ... based on the
universal jurisdiction of piracy.” Accordingly, he contends,
Holmes supplies no support for concluding that the law of
nations permitted his prosecution under the MDLEA, given
that “drug trafficking is not understood to be a universal
jurisdiction offense.”
The problem for Aybar is that the predicate offense in the
foreign nationals' indictment in Holmes was “murder.” 18
U.S. (5 Wheat.) at 413. That is significant because it was well
understood at the time that general piracy was “rob[bery] ... on
the high seas” and that this single category of piracy offense
was, under the law of nations, “punishable by all” -- but
“[n]o particular nation can increase or diminish the list of
offences thus punishable.” Speech of John Marshall at 600;
see also Smith, 18 U.S. (5 Wheat.) at 162 (“[T]he offence [of

17 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

16

United States v. Aybar-Ulloa, 987 F.3d 1 (2021)

general piracy] is supposed to depend, not upon the particular
provisions of any municipal code, but upon the law of nations,
both for its definition and punishment.”). Thus, because the
charged offense at issue in Holmes was murder on the high
seas rather than robbery on the high seas, there is little basis
for concluding that the Court understood the foreign national
defendants there to have been charged with general piracy -and thus with a universal jurisdiction offense -- rather than
with merely a domestic felony.
That the statute of conviction in Holmes provided that “if
any person ... shall commit, upon the high seas, ... murder ...
every such offender shall be deemed, taken, and adjudged
to be, a pirate and felon, and being thereof convicted, shall
suffer death,” Act of April 30th, 1790, for the Punishment
of Certain Crimes Against the *24 United States, ch. 9 § 8,
1 Stat. 113 (emphasis added), does not suggest otherwise. It
was understood at the time that “[a] statute may make any
offence piracy, committed within the jurisdiction of the nation
passing the statute, and such offence will be punishable by
that nation” -- but, unless the statutory offense was general
piracy, “[t]he jurisdiction of the nation is [here] confined
to its territory and to its own subjects.” Speech of John
Marshall at 600, 602 (emphases added); see also id. at 600-01
(rejecting the notion that all “piracies at common law” are
“punishable by every nation,” and explaining that a statute
might punish murder or other crimes as piracy, but such a
“municipal regulation could not be considered as proving
that those offences were ... piracy by the law of nations”);
Eugene Kontorovich, The “Define and Punish” Clause and
the Limits of Universal Jurisdiction, 103 Nw. U. L. Rev. 149,
167 (2009) (explaining the then-familiar understanding that
general piracy and municipal piracy were not equivalent).
Nor is there anything in Holmes that indicates that the
Court understood the offense of murder that was at issue
-- denominated though it was in the underlying federal
criminal statute as a species of piracy -- to constitute
“general” rather than “municipal” piracy. In fact, during the
sentencing proceedings in Holmes, Justice Story, who not
only participated in the case at the Supreme Court but also,
while riding circuit, below in the First Circuit, referenced the
defendants' mutiny aboard the vessel in question -- noting
that the knifing had been part of a plan to seize control of
the ship -- and informed the offenders that their conduct
could have been indicted as a form of general piracy. See
The Holmes Trial at 16-17. But, Justice Story made clear, the
offense of murder on the high seas, for which the defendants
had been indicted, was not itself such an offense. Indeed,

he contrasted that offense with robbery on the high seas,
which he concluded the defendants could have been indicted
for in consequence of their “piratical usurpation and seizure
of the vessel,” and which would have “left [them] only the
character of general pirates and enemies of the human race,
who had thrown off allegiance to all nations, and were justly
amenable for [their] crime to the tribunal of all.” The Holmes
Trial at 16-17; see also Report on the Trial of Samuel Tulley
and John Dalton, on an Indictment for Piracy and Murder,
Committed January 21st, 1812, Before the Circuit Court
of the United States 30-31, 33 (Boston, J. Belcher 1812)
(reporting a decision by Judge Davis, in which Justice Story
concurred, which noted that “[t]he description of the offense
[of piracy] in the first part of the 8th Section of [the Act of
1790] is analogous to the common law description” of piracy,
as distinct from “piracy by the law of nations”).
I do recognize that Holmes refers at one point to the vessel
that the defendants were on as being “piratical.” 18 U.S. (5
Wheat.) at 417. But, this reference also does not help Aybar in
his attempt to show that Holmes fails to undermine the basis
for his constitutional challenge to his conviction.
In describing the vessel from which the defendants committed
the charged offense as “piratical,” Holmes was not purporting
to describe the nature of the defendants' charged offense
as one that constituted general piracy. As we have seen, it
was understood by those involved -- Justice Story among
them -- that the offense did not qualify as such. Holmes
was simply explaining why the vessel that the defendants
had been on in the high seas was fairly deemed to have
no national character, or, otherwise put, to be stateless as
opposed to foreign, such that the United States could subject
those aboard to our *25 laws. For, a description of the
evidence presented during the proceedings below reveals that
the vessel on which the defendants had been when committing
the murder on the high seas had earlier been unlawfully
captured in those waters by pirate ships, at least if one
followed the Court in disbelieving testimony that the seizing
ships “were publicly fitted out at Buenos Ayres” and intended
to “molest[ ] none but Spanish vessels.” The Holmes Trial
at 5, 7-8, 12; see Eugene Kontorovich, Beyond the Article
I Horizon: Congress's Enumerated Powers and Universal
Jurisdiction over Drug Crimes, 93 Minn. L. Rev. 1191, 1228
(2009) (arguing that the vessel in Holmes was “stateless by
virtue of ‘turning pirate’ ”); see also Talbot v. Jansen, 3 U.S.
(3 Dall.) 133, 159, 1 L.Ed. 540 (1795) (opinion of Iredell,
J.) (“[If] upon the enquiry it shall appear, that the vessel
pretending to be a lawful privateer, is really not such, but uses

18 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

17

United States v. Aybar-Ulloa, 987 F.3d 1 (2021)

a colourable commission for the purposes of plunder, she is
to be considered by the law of nations ... in the same light as
having no commission at all.”); The Holmes Trial at 10-11
(“If a murder be committed on board of a ship having no
national character, as on board of ships owned and possessed
by pirates, it is within the statute, if the ship be on the high
seas when the crime is perpetrated. ... Palmer's case goes
only to exclude the operation of the statute, in cases where
other nations have an exclusive jurisdiction.”); cf. Palmer, 16
U.S. (3 Wheat.) at 632-33 (“The[r]e are offences against [a]
nation under whose flag the vessel sails, and within whose
particular jurisdiction all on board the vessel are. Every nation
provides for such offences the punishment its own policy
may dictate; and no general words of a statute ought to be
construed to embrace them when committed by foreigners
against a foreign government.” (emphasis added)).12
12

See Letter from John Quincy Adams, U.S. Sec'y of State,
to Francisco Dionisio Vives, Ambassador of Spain to
the U.S. (May 3, 1820), reprinted in 5 Wheat. App.
154 (1820) (explaining that “[i]n the existing unfortunate
civil war between Spain and the South American
Provinces, the United States have constantly avowed,
and faithfully maintained, an impartial neutrality,”
although the United States would -- and did -- prosecute
“individuals guilty of piracy” that “illegally captured”
“Spanish property” (emphasis added)); The Holmes Trial
at 11 (reporting Justice Story's charge to the jury that “[i]f
at the time when the crime was committed, ... this vessel
was under the exclusive jurisdiction of the Government
of Buenos Ayres, then the statute does not reach the
case [of murder aboard a foreign-flagged ship], and the
Prisoners ought to be acquitted. And this depends on the
fact, whether the capture was made by the privateers,
under any authority derived from the Government of
Buenos Ayres as a belligerent and independent nation ...
[and] sailed rightfully under its flag ... [as this would
mean] the capture was rightful, and the captured vessel
immediately after the capture, may be justly deemed
to have been exclusively under the jurisdiction of the
Government of Buenos Ayres.”).

Moreover, Aybar, who has waived any challenge to whether
his vessel was actually stateless, makes no argument to us that
the statelessness of a vessel in international waters permits
the foreign national aboard it to be subjected to our domestic
criminal laws consistent with the law of nations only if the
vessel is stateless by virtue of it having engaged in conduct
that qualifies as general piracy. Aybar instead argues to us
only that there is an important distinction to be drawn under
the law of nations between offenses that are of universal

jurisdiction and offenses that are not, and that the offense for
which he was charged -- drug trafficking -- is of the latter kind.
Thus, the fact that Holmes deemed the foreign nationals who
were the defendants in that case to be on a vessel lacking
national character because it was piratical *26 lends little
aid to Aybar's cause. The offense that was at issue in Holmes
was a mere domestic felony, just like his, and it occurred on
a vessel that was stateless, just like his.13
13

Interestingly, in his charge to the jury, Justice Story
explained that the defendants could even be prosecuted
if they had committed the murder while aboard no ship:
The statute refers as to locality to “the high seas”
only, and it would be far too narrow a construction,
to limit its operation to crimes committed on board
of ships or vessels. Murder may be committed on the
high seas when neither the murderer, or the murdered
is on board of any ship or vessel. A man may in the
sea murder another who is in the sea swimming, or
on a plank or raft; and it is obvious, that when the
death is by drowning, the murder is committed literally
on the high seas, wherever the murderer may at the
time be. ... We see no reason in a case of this sort,
where the murder is committed actually in the sea,
why the case which is within the literal terms of the
statute, should not be held within its purview, whether
the murder were committed by a citizen on a citizen,
or by a foreigner on a citizen, or by a foreigner on
a foreigner. Such a case is not within the reason of
Palmer's case. Every nation has concurrent jurisdiction
with every other nation on the high seas; and when
a crime is committed on the high seas, not on board
of any ship or vessel, it is not exclusively within the
jurisdiction of any nation; and every nation may, if it
choose, punish such crime without doing any wrong
to either nation.
The Holmes Trial at 10 (emphasis added). In Holmes
itself, moreover, the Supreme Court agreed that
it makes no difference whether the offence was
committed on board of a vessel, or in the sea, as by
throwing the deceased overboard and drowning him,
or by shooting him when in the sea, though he was
not thrown overboard. The words of the above act of
Congress are general, and speak of certain offences
committed upon the high seas, without reference
to any vessel whatsoever on which they should be
committed; and no reason is perceived why a more
restricted meaning should be given to the expressions
of the law, than they literally import.
18 U.S. (5 Wheat.) at 418 (emphasis added).

19 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

18

United States v. Aybar-Ulloa, 987 F.3d 1 (2021)

Aybar also makes no argument to us that even if Holmes
did take an expansive view of the United States' authority to
assert domestic criminal jurisdiction over foreign nationals
engaged in felonious conduct on a stateless vessel on the high
seas, intervening developments in international law preclude
us from construing Article I's Define and Punish Clause to
permit Congress to rely on that power to enact this criminal
statute on the understanding of the law of nations that Holmes
embraced. His only contention regarding Holmes is that it did
not embrace that understanding of the law of nations even
then.

IV.
For these reasons, I am convinced that Holmes requires
that we conclude that the Define and Punish Clause is best
understood not to contain an implicit limit that would prevent
the United States from prosecuting foreign nationals for
their felonious conduct on stateless vessels in international
waters. The founding generation was attentive to the strictures
of the law of nations. See David M. Golove & Daniel J.
Hulsebosch, The Law of Nations and the Constitution: An
Early Modern Perspective, 106 Geo. L. J. 1593, 1595-96
(2018) (describing “the prominent place of the law of
nations in the constitutional reform project that culminated
in the Philadelphia Convention”). And so, as between the
uncertain or even skeptical views of more contemporary
commentators on the law of nations and the seemingly
unqualified statements of the Supreme Court in Holmes, I
am persuaded that the latter must control our judgment as a
lower court in this case -- at least given that state practice
is not clearly contrary to what the political branches of our
country assert it to be. See *27 United Nurses & Allied
Prof'ls v. Nat'l Labor Rels. Bd., 975 F.3d 34, 40 (1st Cir. 2020)
(“We are bound by the Supreme Court's ‘considered dicta.’
” (quoting McCoy v. Mass. Inst. of Tech., 950 F.2d 13, 19 (1st
Cir. 1991))).
Accordingly, I would affirm Aybar's conviction against
his constitutional challenge to Congress's exercise of its
Article I power on the basis of Holmes, while leaving all
other questions -- including whether and when MDLEA
prosecutions comport with the Fifth Amendment's Due
Process Clause -- for a case in which they are properly raised.
I do note, though, that while I reach the same destination as
End of Document

the majority, the route that I take to get there may bear on the
proper answer to at least one question that the case before us
does not require us to resolve.
I do not dispute the majority's observation that “fair warning
has certainly been given” that drug trafficking is commonly
outlawed. Op. at 14. But, there is potentially a separate notice
question concerning whether “fair warning” exists as to where
that commonly outlawed offense may be prosecuted. Cf. Int'l
Shoe v. Washington, 326 U.S. 310, 316, 66 S.Ct. 154, 90 L.Ed.
95 (1945) (“[D]ue process requires ... that, in order to subject
a defendant to a judgment in personam, if he be not present
within the territory of the forum, he have certain minimum
contacts with it ....”).
It is not clear to me that our own Supreme Court's precedent
(let alone precedents from lower U.S. courts such as ours) as
to the scope of valid congressional power over misconduct
by foreign nationals on stateless vessels on the high seas
could supply fair warning on the “where” question to a
foreign national. At least, I am not sure that it could do so
if other authoritative sources for determining the content of
the law of nations -- ones not generated solely by a single
country's legal system -- do not themselves provide fair
warning that all nations possess territorial jurisdiction over
the conduct of foreign nationals on board stateless vessels
in international waters and thereby makes them potentially
subject to prosecution in any nation under its domestic
criminal laws.
Aybar, however, does not pursue a due process challenge to
his conviction. I thus see no need to decide here whether the
law of nations, uncertain though it appears to me to be in
that respect, is nonetheless clear enough to provide a person
who ventures into international waters in a stateless vessel
the constitutionally requisite degree of warning of the risk of
being prosecuted in a foreign forum for drug trafficking while
on board that vessel. Nor do I see any reason to decide in
this case whether Holmes itself requires us to conclude that,
despite what more modern commentary suggests, the law of
nations is clear enough on that score to mitigate any notice
concerns that might be of a constitutional magnitude.
All Citations
987 F.3d 1
© 2021 Thomson Reuters. No claim to original U.S.
Government Works.

20 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

19

§ 70501. Findings and declarations, 46 USCA § 70501

United States Code Annotated
Title 46. Shipping (Refs & Annos)
Subtitle VII. Security and Drug Enforcement (Refs & Annos)
Chapter 705. Maritime Drug Law Enforcement
46 U.S.C.A. § 70501
Formerly cited as 46 App. USCA § 1902

§ 70501. Findings and declarations
Effective: October 13, 2008
Currentness
Congress finds and declares that (1) trafficking in controlled substances aboard vessels is a serious international problem,
is universally condemned, and presents a specific threat to the security and societal well-being of the United States and (2)
operating or embarking in a submersible vessel or semi-submersible vessel without nationality and on an international voyage is
a serious international problem, facilitates transnational crime, including drug trafficking, and terrorism, and presents a specific
threat to the safety of maritime navigation and the security of the United States.
CREDIT(S)
(Pub.L. 109-304, § 10(2), Oct. 6, 2006, 120 Stat. 1685; Pub.L. 110-407, Title II, § 201, Oct. 13, 2008, 122 Stat. 4299.)

Notes of Decisions (3)
46 U.S.C.A. § 70501, 46 USCA § 70501
Current through PL 117-1 with the exception of PL 116-283 and PL 116-315. Incorporation of changes from PL 116-283 and
PL 116-315 are in progress. Refer to statute section credits for more details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

21 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

1

§ 70502. Definitions, 46 USCA § 70502

United States Code Annotated
Title 46. Shipping (Refs & Annos)
Subtitle VII. Security and Drug Enforcement (Refs & Annos)
Chapter 705. Maritime Drug Law Enforcement
46 U.S.C.A. § 70502
Formerly cited as 46 App. USCA § 1903

§ 70502. Definitions
Effective: October 13, 2008
Currentness
(a) Application of other definitions.--The definitions in section 102 of the Comprehensive Drug Abuse Prevention and Control
Act of 1970 (21 U.S.C. 802) apply to this chapter.
(b) Vessel of the United States.--In this chapter, the term “vessel of the United States” means-(1) a vessel documented under chapter 121 of this title or numbered as provided in chapter 123 of this title;
(2) a vessel owned in any part by an individual who is a citizen of the United States, the United States Government, the
government of a State or political subdivision of a State, or a corporation incorporated under the laws of the United States
or of a State, unless-(A) the vessel has been granted the nationality of a foreign nation under article 5 of the 1958 Convention on the High
Seas; and
(B) a claim of nationality or registry for the vessel is made by the master or individual in charge at the time of the
enforcement action by an officer or employee of the United States who is authorized to enforce applicable provisions of
United States law; and
(3) a vessel that was once documented under the laws of the United States and, in violation of the laws of the United States,
was sold to a person not a citizen of the United States, placed under foreign registry, or operated under the authority of a
foreign nation, whether or not the vessel has been granted the nationality of a foreign nation.
(c) Vessel subject to the jurisdiction of the United States.-(1) In general.--In this chapter, the term “vessel subject to the jurisdiction of the United States” includes-(A) a vessel without nationality;

22 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

1

§ 70502. Definitions, 46 USCA § 70502

(B) a vessel assimilated to a vessel without nationality under paragraph (2) of article 6 of the 1958 Convention on the
High Seas;
(C) a vessel registered in a foreign nation if that nation has consented or waived objection to the enforcement of United
States law by the United States;
(D) a vessel in the customs waters of the United States;
(E) a vessel in the territorial waters of a foreign nation if the nation consents to the enforcement of United States law by
the United States; and
(F) a vessel in the contiguous zone of the United States, as defined in Presidential Proclamation 7219 of September 2,
1999 (43 U.S.C. 1331 note), that-(i) is entering the United States;
(ii) has departed the United States; or
(iii) is a hovering vessel as defined in section 401 of the Tariff Act of 1930 (19 U.S.C. 1401).
(2) Consent or waiver of objection.--Consent or waiver of objection by a foreign nation to the enforcement of United States
law by the United States under paragraph (1)(C) or (E)-(A) may be obtained by radio, telephone, or similar oral or electronic means; and
(B) is proved conclusively by certification of the Secretary of State or the Secretary's designee.
(d) Vessel without nationality.-(1) In general.--In this chapter, the term “vessel without nationality” includes-(A) a vessel aboard which the master or individual in charge makes a claim of registry that is denied by the nation whose
registry is claimed;
(B) a vessel aboard which the master or individual in charge fails, on request of an officer of the United States authorized
to enforce applicable provisions of United States law, to make a claim of nationality or registry for that vessel; and

23 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

2

§ 70502. Definitions, 46 USCA § 70502

(C) a vessel aboard which the master or individual in charge makes a claim of registry and for which the claimed nation
of registry does not affirmatively and unequivocally assert that the vessel is of its nationality.
(2) Response to claim of registry.--The response of a foreign nation to a claim of registry under paragraph (1)(A) or (C) may
be made by radio, telephone, or similar oral or electronic means, and is proved conclusively by certification of the Secretary
of State or the Secretary's designee.
(e) Claim of nationality or registry.--A claim of nationality or registry under this section includes only-(1) possession on board the vessel and production of documents evidencing the vessel's nationality as provided in article 5
of the 1958 Convention on the High Seas;
(2) flying its nation's ensign or flag; or
(3) a verbal claim of nationality or registry by the master or individual in charge of the vessel.
(f) Semi-submersible vessel; submersible vessel.--In this chapter:
(1) Semi-submersible vessel.--The term “semi-submersible vessel” means any watercraft constructed or adapted to be
capable of operating with most of its hull and bulk under the surface of the water, including both manned and unmanned
watercraft.
(2) Submersible vessel.--The term “submersible vessel” means a vessel that is capable of operating completely below the
surface of the water, including both manned and unmanned watercraft.
CREDIT(S)
(Pub.L. 109-304, § 10(2), Oct. 6, 2006, 120 Stat. 1685; Pub.L. 109-241, Title III, § 303, July 11, 2006, 120 Stat. 527; Pub.L.
110-181, Div. C, Title XXXV, § 3525(a)(6), (b), Jan. 28, 2008, 122 Stat. 601; Pub.L. 110-407, Title II, § 203, Oct. 13, 2008,
122 Stat. 4300.)

Notes of Decisions (91)
46 U.S.C.A. § 70502, 46 USCA § 70502
Current through PL 117-1 with the exception of PL 116-283 and PL 116-315. Incorporation of changes from PL 116-283 and
PL 116-315 are in progress. Refer to statute section credits for more details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

24 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

3

§ 70503. Prohibited acts, 46 USCA § 70503

United States Code Annotated
Title 46. Shipping (Refs & Annos)
Subtitle VII. Security and Drug Enforcement (Refs & Annos)
Chapter 705. Maritime Drug Law Enforcement
46 U.S.C.A. § 70503
Formerly cited as 46 App. USCA § 1903

§ 70503. Prohibited acts
Effective: February 8, 2016
Currentness
(a) Prohibitions.--While on board a covered vessel, an individual may not knowingly or intentionally-(1) manufacture or distribute, or possess with intent to manufacture or distribute, a controlled substance;
(2) destroy (including jettisoning any item or scuttling, burning, or hastily cleaning a vessel), or attempt or conspire to destroy,
property that is subject to forfeiture under section 511(a) of the Comprehensive Drug Abuse Prevention and Control Act of
1970 (21 U.S.C. 881(a)); or
(3) conceal, or attempt or conspire to conceal, more than $100,000 in currency or other monetary instruments on the person
of such individual or in any conveyance, article of luggage, merchandise, or other container, or compartment of or aboard
the covered vessel if that vessel is outfitted for smuggling.
(b) Extension beyond territorial jurisdiction.--Subsection (a) applies even though the act is committed outside the territorial
jurisdiction of the United States.
(c) Nonapplication.-(1) In general.--Subject to paragraph (2), subsection (a) does not apply to-(A) a common or contract carrier or an employee of the carrier who possesses or distributes a controlled substance in the
lawful and usual course of the carrier's business; or
(B) a public vessel of the United States or an individual on board the vessel who possesses or distributes a controlled
substance in the lawful course of the individual's duties.

25 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

1

§ 70503. Prohibited acts, 46 USCA § 70503

(2) Entered in manifest.--Paragraph (1) applies only if the controlled substance is part of the cargo entered in the vessel's
manifest and is intended to be imported lawfully into the country of destination for scientific, medical, or other lawful
purposes.
(d) Burden of proof.--The United States Government is not required to negative a defense provided by subsection (c) in a
complaint, information, indictment, or other pleading or in a trial or other proceeding. The burden of going forward with the
evidence supporting the defense is on the person claiming its benefit.
(e) Covered vessel defined.--In this section the term “covered vessel” means-(1) a vessel of the United States or a vessel subject to the jurisdiction of the United States; or
(2) any other vessel if the individual is a citizen of the United States or a resident alien of the United States.
CREDIT(S)
(Pub.L. 109-304, § 10(2), Oct. 6, 2006, 120 Stat. 1687; Pub.L. 114-120, Title III, § 314(a), (b), (e)(1), Feb. 8, 2016, 130 Stat. 59.)

Notes of Decisions (194)
46 U.S.C.A. § 70503, 46 USCA § 70503
Current through PL 117-1 with the exception of PL 116-283 and PL 116-315. Incorporation of changes from PL 116-283 and
PL 116-315 are in progress. Refer to statute section credits for more details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

26 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

2

§ 70504. Jurisdiction and venue, 46 USCA § 70504

United States Code Annotated
Title 46. Shipping (Refs & Annos)
Subtitle VII. Security and Drug Enforcement (Refs & Annos)
Chapter 705. Maritime Drug Law Enforcement
46 U.S.C.A. § 70504
Formerly cited as 46 App. USCA § 1903

§ 70504. Jurisdiction and venue
Effective: December 12, 2017
Currentness
(a) Jurisdiction.--Jurisdiction of the United States with respect to a vessel subject to this chapter is not an element of an offense.
Jurisdictional issues arising under this chapter are preliminary questions of law to be determined solely by the trial judge.
(b) Venue.--A person violating section 70503 or 70508-(1) shall be tried in the district in which such offense was committed; or
(2) if the offense was begun or committed upon the high seas, or elsewhere outside the jurisdiction of any particular State
or district, may be tried in any district.
CREDIT(S)
(Pub.L. 109-304, § 10(2), Oct. 6, 2006, 120 Stat. 1688; Pub.L. 110-407, Title II, § 202(b)(2), Oct. 13, 2008, 122 Stat. 4300;
Pub.L. 115-91, Div. A, Title X, § 1012(a), Dec. 12, 2017, 131 Stat. 1546.)

Notes of Decisions (27)
46 U.S.C.A. § 70504, 46 USCA § 70504
Current through PL 117-1 with the exception of PL 116-283 and PL 116-315. Incorporation of changes from PL 116-283 and
PL 116-315 are in progress. Refer to statute section credits for more details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

27 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

1

§ 70505. Failure to comply with international law as a defense, 46 USCA § 70505

United States Code Annotated
Title 46. Shipping (Refs & Annos)
Subtitle VII. Security and Drug Enforcement (Refs & Annos)
Chapter 705. Maritime Drug Law Enforcement
46 U.S.C.A. § 70505
Formerly cited as 46 App. USCA § 1903

§ 70505. Failure to comply with international law as a defense
Effective: October 13, 2008
Currentness
A person charged with violating section 70503 of this title, or against whom a civil enforcement proceeding is brought under
section 70508, does not have standing to raise a claim of failure to comply with international law as a basis for a defense. A claim
of failure to comply with international law in the enforcement of this chapter may be made only by a foreign nation. A failure
to comply with international law does not divest a court of jurisdiction and is not a defense to a proceeding under this chapter.
CREDIT(S)
(Pub.L. 109-304, § 10(2), Oct. 6, 2006, 120 Stat. 1688; Pub.L. 110-407, Title II, § 202(b)(3), Oct. 13, 2008, 122 Stat. 4300.)

Notes of Decisions (2)
46 U.S.C.A. § 70505, 46 USCA § 70505
Current through PL 117-1 with the exception of PL 116-283 and PL 116-315. Incorporation of changes from PL 116-283 and
PL 116-315 are in progress. Refer to statute section credits for more details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

28 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

1

§ 70506. Penalties, 46 USCA § 70506

United States Code Annotated
Title 46. Shipping (Refs & Annos)
Subtitle VII. Security and Drug Enforcement (Refs & Annos)
Chapter 705. Maritime Drug Law Enforcement
46 U.S.C.A. § 70506
Formerly cited as 46 App. USCA § 1903

§ 70506. Penalties
Effective: February 8, 2016
Currentness
(a) Violations.--A person violating paragraph (1) of section 70503(a) of this title shall be punished as provided in section 1010
of the Comprehensive Drug Abuse Prevention and Control Act of 1970 (21 U.S.C. 960). However, if the offense is a second
or subsequent offense as provided in section 1012(b) of that Act (21 U.S.C. 962(b)), the person shall be punished as provided
in section 1012 of that Act (21 U.S.C. 962).
(b) Attempts and conspiracies.--A person attempting or conspiring to violate section 70503 of this title is subject to the same
penalties as provided for violating section 70503.
(c) Simple possession.-(1) In general.--Any individual on a vessel subject to the jurisdiction of the United States who is found by the Secretary,
after notice and an opportunity for a hearing, to have knowingly or intentionally possessed a controlled substance within the
meaning of the Controlled Substances Act (21 U.S.C. 812) shall be liable to the United States for a civil penalty of not to
exceed $5,000 for each violation. The Secretary shall notify the individual in writing of the amount of the civil penalty.
(2) Determination of amount.--In determining the amount of the penalty, the Secretary shall consider the nature,
circumstances, extent, and gravity of the prohibited acts committed and, with respect to the violator, the degree of culpability,
any history of prior offenses, ability to pay, and other matters that justice requires.
(3) Treatment of civil penalty assessment.--Assessment of a civil penalty under this subsection shall not be considered a
conviction for purposes of State or Federal law but may be considered proof of possession if such a determination is relevant.
(d) Penalty.--A person violating paragraph (2) or (3) of section 70503(a) shall be fined in accordance with section 3571 of title
18, imprisoned not more than 15 years, or both.
CREDIT(S)
(Pub.L. 109-304, § 10(2), Oct. 6, 2006, 120 Stat. 1688; Pub.L. 111-281, Title III, § 302, Oct. 15, 2010, 124 Stat. 2923; Pub.L.
114-120, Title III, § 314(c), Feb. 8, 2016, 130 Stat. 59.)

29 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

1

§ 70506. Penalties, 46 USCA § 70506

Notes of Decisions (39)
46 U.S.C.A. § 70506, 46 USCA § 70506
Current through PL 117-1 with the exception of PL 116-283 and PL 116-315. Incorporation of changes from PL 116-283 and
PL 116-315 are in progress. Refer to statute section credits for more details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

30 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

2

§ 70507. Forfeitures, 46 USCA § 70507

United States Code Annotated
Title 46. Shipping (Refs & Annos)
Subtitle VII. Security and Drug Enforcement (Refs & Annos)
Chapter 705. Maritime Drug Law Enforcement
46 U.S.C.A. § 70507
Formerly cited as 46 App. USCA § 1904

§ 70507. Forfeitures
Effective: February 8, 2016
Currentness
(a) In general.--Property described in section 511(a) of the Comprehensive Drug Abuse Prevention and Control Act of 1970
(21 U.S.C. 881(a)) that is used or intended for use to commit, or to facilitate the commission of, an offense under section 70503
or 70508 of this title may be seized and forfeited in the same manner that similar property may be seized and forfeited under
section 511 of that Act (21 U.S.C. 881).
(b) Prima facie evidence of violation.--Practices commonly recognized as smuggling tactics may provide prima facie evidence
of intent to use a vessel to commit, or to facilitate the commission of, an offense under section 70503 of this title, and may
support seizure and forfeiture of the vessel, even in the absence of controlled substances aboard the vessel. The following indicia,
among others, may be considered, in the totality of the circumstances, to be prima facie evidence that a vessel is intended to
be used to commit, or to facilitate the commission of, such an offense:
(1) The construction or adaptation of the vessel in a manner that facilitates smuggling, including-(A) the configuration of the vessel to ride low in the water or present a low hull profile to avoid being detected visually
or by radar;
(B) the presence of any compartment or equipment that is built or fitted out for smuggling, not including items such as a
safe or lock-box reasonably used for the storage of personal valuables;
(C) the presence of an auxiliary tank not installed in accordance with applicable law or installed in such a manner as to
enhance the vessel's smuggling capability;
(D) the presence of engines that are excessively over-powered in relation to the design and size of the vessel;
(E) the presence of materials used to reduce or alter the heat or radar signature of the vessel and avoid detection;
(F) the presence of a camouflaging paint scheme, or of materials used to camouflage the vessel, to avoid detection; or

31 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

1

§ 70507. Forfeitures, 46 USCA § 70507

(G) the display of false vessel registration numbers, false indicia of vessel nationality, false vessel name, or false vessel
homeport.
(2) The presence or absence of equipment, personnel, or cargo inconsistent with the type or declared purpose of the vessel.
(3) The presence of excessive fuel, lube oil, food, water, or spare parts, inconsistent with legitimate vessel operation,
inconsistent with the construction or equipment of the vessel, or inconsistent with the character of the vessel's stated purpose.
(4) The operation of the vessel without lights during times lights are required to be displayed under applicable law or regulation
and in a manner of navigation consistent with smuggling tactics used to avoid detection by law enforcement authorities.
(5) The failure of the vessel to stop or respond or heave to when hailed by government authority, especially where the vessel
conducts evasive maneuvering when hailed.
(6) The declaration to government authority of apparently false information about the vessel, crew, or voyage or the failure
to identify the vessel by name or country of registration when requested to do so by government authority.
(7) The presence of controlled substance residue on the vessel, on an item aboard the vessel, or on an individual aboard the
vessel, of a quantity or other nature that reasonably indicates manufacturing or distribution activity.
(8) The use of petroleum products or other substances on the vessel to foil the detection of controlled substance residue.
(9) The presence of a controlled substance in the water in the vicinity of the vessel, where given the currents, weather
conditions, and course and speed of the vessel, the quantity or other nature is such that it reasonably indicates manufacturing
or distribution activity.
CREDIT(S)
(Pub.L. 109-304, § 10(2), Oct. 6, 2006, 120 Stat. 1688; Pub.L. 114-120, Title III, § 314(d), Feb. 8, 2016, 130 Stat. 59.)

Notes of Decisions (3)
46 U.S.C.A. § 70507, 46 USCA § 70507
Current through PL 117-1 with the exception of PL 116-283 and PL 116-315. Incorporation of changes from PL 116-283 and
PL 116-315 are in progress. Refer to statute section credits for more details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

32 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

2

§ 70508. Operation of submersible vessel or semi-submersible..., 46 USCA § 70508

United States Code Annotated
Title 46. Shipping (Refs & Annos)
Subtitle VII. Security and Drug Enforcement (Refs & Annos)
Chapter 705. Maritime Drug Law Enforcement
46 U.S.C.A. § 70508

§ 70508. Operation of submersible vessel or semi-submersible vessel without nationality
Effective: October 13, 2008
Currentness
(a) In general.--An individual may not operate by any means or embark in any submersible vessel or semi-submersible vessel
that is without nationality and that is navigating or has navigated into, through, or from waters beyond the outer limit of the
territorial sea of a single country or a lateral limit of that country's territorial sea with an adjacent country, with the intent to
evade detection.
(b) Evidence of intent to evade detection.--In any civil enforcement proceeding for a violation of subsection (a), the presence
of any of the indicia described in paragraph (1)(A), (E), (F), or (G), or in paragraph (4), (5), or (6), of section 70507(b) may be
considered, in the totality of the circumstances, to be prima facie evidence of intent to evade detection.
(c) Defenses.-(1) In general.--It is a defense in any civil enforcement proceeding for a violation of subsection (a) that the submersible
vessel or semi-submersible vessel involved was, at the time of the violation-(A) a vessel of the United States or lawfully registered in a foreign nation as claimed by the master or individual in charge
of the vessel when requested to make a claim by an officer of the United States authorized to enforce applicable provisions
of United States law;
(B) classed by and designed in accordance with the rules of a classification society;
(C) lawfully operated in government-regulated or licensed activity, including commerce, research, or exploration; or
(D) equipped with and using an operable automatic identification system, vessel monitoring system, or long range
identification and tracking system.
(2) Production of documents.--The defenses provided by this subsection are proved conclusively by the production of--

33 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

1

§ 70508. Operation of submersible vessel or semi-submersible..., 46 USCA § 70508

(A) government documents evidencing the vessel's nationality at the time of the offense, as provided in article 5 of the
1958 Convention on the High Seas;
(B) a certificate of classification issued by the vessel's classification society upon completion of relevant classification
surveys and valid at the time of the offense; or
(C) government documents evidencing licensure, regulation, or registration for research or exploration.
(d) Civil penalty.--A person violating this section shall be liable to the United States for a civil penalty of not more than
$1,000,000.
CREDIT(S)
(Added Pub.L. 110-407, Title II, § 202(a), Oct. 13, 2008, 122 Stat. 4299.)
46 U.S.C.A. § 70508, 46 USCA § 70508
Current through PL 117-1 with the exception of PL 116-283 and PL 116-315. Incorporation of changes from PL 116-283 and
PL 116-315 are in progress. Refer to statute section credits for more details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

34 a U.S. Government Works.
© 2021 Thomson Reuters. No claim to original

2

